U.S. Department of Agriculture
 Office of Inspector General
     Food Safety Initiative
  Meat and Poultry Products


FOOD SAFETY AND INSPECTION SERVICE
IMPLEMENTATION OF THE HAZARD
ANALYSIS AND CRITICAL CONTROL
        POINT SYSTEM




                          Report No.
                          24001-3-At
                          June 2000
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                      Washington D.C. 20250


DATE:         June 21, 2000

REPLY TO
ATTN OF:      24001-3-At

SUBJECT:      Implementation of the Hazard Analysis and
              Critical Control Point System

TO:           Thomas J. Billy
              Administrator
              Food Safety and Inspection Service

ATTN:         Margaret O’K. Glavin
              Associate Administrator


This report presents the results of our audit of the Food Safety and Inspection Service’s
implementation of Hazard Analysis and Critical Control Point System to ensure that
domestic meat and poultry products are safe and wholesome. This review is part of the
Office of Inspector General’s food safety initiative, which also included the District
Enforcement Operations’ compliance activities, oversight and controls over imported meat
and poultry products, and the agency’s procedures established for testing meat and poultry
products. Your response to the official draft report, dated May 18, 2000, is included as
exhibit D with excerpts and the Office of Inspector General’s position incorporated into the
Findings and Recommendations section of the report. Based on your response,
management decisions have been reached on Recommendations Nos. 7, 13, 14, and 19.
Please follow your agency’s internal procedures in forwarding documentation for final
action to the Office of the Chief Financial Officer.

Management decisions have not been reached on Recommendations Nos. 1 through 6, 8
through 12, 15 through 18, and 20. Management decisions can be reached once you have
provided the additional information outlined in the report sections, OIG Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and the timeframes for implementation
of the remaining recommendations. Please note that the regulation requires management
decisions to be reached on all recommendations within 6 months of report issuance.


/s/
ROGER C. VIADERO
Inspector General
                     EXECUTIVE SUMMARY
                FOOD SAFETY AND INSPECTION SERVICE
              IMPLEMENTATION OF THE HAZARD ANALYSIS
                AND CRITICAL CONTROL POINT SYSTEM
                    AUDIT REPORT NO. 24001-3-At


                                     This report presents the results of our
      RESULTS IN BRIEF               audit of the Hazard Analysis and Critical
                                     Control Point (HACCP) inspection
                                     system, administered by the U.S.
         Department of Agriculture's (USDA) Food Safety and Inspection
         Service (FSIS). The purpose of our audit was to evaluate FSIS'
         implementation of the HACCP program and to determine whether
         the program was effective in ensuring the wholesomeness of the
         meat and poultry sold to consumers. This audit was part of the
         Office of Inspector General’s (OIG) food safety initiative, which also
         included reviews of imported meat, compliance operations, and
         USDA’s laboratory testing procedures.

            The HACCP system, which was recommended by USDA’s National
            Advisory Committee on Microbiological Criteria for Foods and
            endorsed by the scientific community, established seven principles
            for plants to implement in their food safety system. It replaced FSIS'
            longstanding program of meat and poultry inspection. Under the pre-
            HACCP system, the production of meat and poultry products was
            monitored at every stage by Government employees rather than by
            in-plant production managers. The HACCP program reversed this
            arrangement by allowing a plant to monitor itself. It gave industry,
            not Government, the primary responsibility for ensuring the safety of
            meat and poultry products. Industry was required to implement a
            HACCP system that identified and controlled (1) physical, chemical,
            and biological hazards to the production process and (2) a program
            of ongoing microbial testing that served as verification that the
            system was working.

            Overall, we concluded that FSIS and the industry were making
            progress in changing from the traditional inspection methodology to
            the type of science-based production control system that had been
            recommended by various studies over several years.            FSIS
            developed regulations and guidance that was consistent with the
            seven HACCP principles, and plants developed HACCP plans that


USDA/OIG-A/24001-3-At                                            Section I, Page i
             addressed these principles. In reviewing both the production
             process and the microbial testing programs under HACCP, we found
             no instances at plants visited in which plants or slaughterhouses
             flagrantly violated standards of environmental hygiene.             We
             concluded, however, that for HACCP to realize its full potential, FSIS
             must assert its authorities under the program to ensure that the
             intent of the program is met. Because FSIS was uncertain of its
             HACCP authorities and had not established needed procedures, it
             had reduced its oversight beyond what was prudent and necessary
             for the protection of the consumer. For example, FSIS does not
             require plants to provide inspectors with positive environmental
             microbial test results although these tests could provide an indication
             of sanitary deficiencies in the plant.

             Under the HACCP program, every meat and poultry plant must
             perform a hazard analysis to identity the food safety hazards likely to
             occur in its production process. Critical control points (CCP) also need
             to be documented where preventive measures need to be established
             to reduce or eliminate each of the hazards. In addition, the measures
             the plant can apply to control the hazards must be identified. In our
             review of 15 meat and poultry plants nationwide, we found that
             hazard analyses were incomplete and CCP’s were not established.
             Although FSIS inspectors were aware of these deficiencies, they did
             not take corrective action because of uncertainties of their authority
             to do so.

             •   Because HACCP plans constitute the basis for FSIS oversight,
                 plants can limit that oversight by reducing the number of CCP’s
                 identified in their plans. For example, although FSIS’ model
                 HACCP plan for fully-cooked products contained seven CCP’s,
                 most of the plants visited producing cooked products had only
                 one or two CCP’s. FSIS was consequently restricted in its
                 oversight of the plant’s products. None of the establishments
                 audited included end-product microbial testing as a CCP in their
                 plans, although, FSIS included such testing in its HACCP models.

             •   Although FSIS required a minimum of one CCP per process, we
                 found some plants listed none. Also, there were HACCP plans
                 that identified hazards for which no control points were listed. For
                 example, one plant correctly showed that cold storage could
                 introduce a hazard if the room temperature increased (to a level
                 where hazardous microbes could grow), but it did not show that
                 this was a CCP even though the plant itself was monitoring the
                 temperature of the cooler. FSIS agreed that this should be


Section I, Page ii                                        USDA/OIG-A/24001-3-At
               considered a control point after an OIG auditor pointed out the
               condition.

           •   HACCP plans also did not include scientific data to support the
               critical limits the plant had established, such as heating and
               cooling temperatures, and did not always document their
               responses to deviations from these critical limits. Critical limits
               established by the plants were primarily based on historical
               practice, not scientific data. Also, stated limits were inconsistent
               with practice.     One plant documented "zero tolerance" for
               deviations from one control, but the plant's HACCP plan allowed
               three discrepancies before action needed to be taken.

           Currently, FSIS does not review plants' microbial testing plans to
           ensure that sampling protocols are completed and followed, and it
           does not adequately secure samples sent to USDA labs for testing.
           One recent investigation in Florida found that samples under lax
           security had been tampered with, resulting in false test results. Test
           results from samples taken in violation of protocols could also be
           worthless.

           FSIS also needs to assert itself more aggressively in the plants'
           testing programs. In the current environment with the absence of
           FSIS guidance, plants are not testing for pathogens in end-products,
           and they are not notifying FSIS of all test results, particularly those
           showing the potential presence of pathogens. Because FSIS
           requires plants to notify it only if microbial tests confirm the presence
           of specific pathogens causing adulterated products, plants often limit
           their tests when the results indicate the presence of generic
           microbes. Thus, plants do not test end-products for specific
           pathogens like E. coli 0.157:H7 or Listeria monocytogenes (LM) even
           after positive generic E. coli or Listeria tests are obtained. We
           believe prudent oversight requires FSIS to be aware of all positive
           test results, generic or otherwise. FSIS should also expand their
           own testing to increase the number of tests for E. coli 0.157:H7, LM,
           and Salmonella and to include other pathogens in their testing
           requirements. FSIS’ current testing program is primarily aimed at
           three main pathogens and is insufficient as a reliable assessment of
           individual plants. It also does not include other major foodborne
           pathogens, such as Campylobacter, that are now detectable through
           microbial testing.

           In areas in which FSIS has asserted its oversight of the HACCP
           program, it has not always been effective. Although regulations



USDA/OIG-A/24001-3-At                                            Section I, Page iii
             require FSIS to verify the adequacy of each plant's Sanitation
             Standard Operating Procedures (SSOP) of the plant environment,
             we found that inspectors did not ensure that plants sanitation plans
             contained all required elements. We also noted that FSIS had no
             follow-up procedures to ensure that returned products were re-
             inspected or destroyed.

             •   At 4 of the 15 plants we reviewed, the SSOP’s approved by FSIS
                 did not include plant cleaning schedules and frequencies. At one
                 plant, violations of the standards were documented but no
                 corrective actions were required.      Unsanitary environments
                 jeopardize the wholesomeness of the meat and poultry produced
                 by the plant. (See Finding No. 11).

             •   Salmonella testing at one plant was never completed because
                 the FSIS laboratory did not inform the inspector at the plant that
                 some samples had to be discarded and additional replacement
                 samples were needed. (See Finding No. 7).

             •   National office documentation showed that field personnel were
                 not performing over 17 percent of the scheduled tasks assigned
                 to them. We found that many assigned tasks were invalid
                 because plant profiles had not been updated to reflect current
                 operations. Field offices were not required to explain why the
                 tasks were never performed. (See Finding No. 13).

             •   For plants with documented deficiencies, FSIS has not
                 established when corrective action needs to be taken or when an
                 action taken has proven inadequate. One plant we reviewed did
                 not respond to a documented deficiency for over 4 months. Four
                 plants had repetitive deficiencies even though they took
                 corrective actions. One of these plants had 102 deficiency
                 notices, one-third of which involved the same noncompliance
                 concerning fecal contamination. Since FSIS had set no limit to
                 the number of deficiency notices a plant could receive on the
                 same deficiency, no long-term correction was applied. (See
                 Finding No. 14).

             We concluded that FSIS' oversight of the HACCP program would
             improve if FSIS established an internal review of FSIS activities at
             meat and poultry establishments.      Although FSIS has a unit
             responsible to perform these reviews, it has not used that unit
             effectively in this area.




Section I, Page iv                                       USDA/OIG-A/24001-3-At
            FSIS also needs to gain access to plant records. Under its current
            system of oversight, FSIS requests access only to those documents
            responding to HACCP requirements. Consequently, plants have
            limited the information they provide in their HACCP documents, and
            regard even those documents as proprietary. For example, during the
            audit, some plants initially denied both the Inspector General’s and
            FSIS’ requests for testing information. The denial of records was
            elevated to the FSIS Headquarters, and the plants provided the
            information only after extended negotiations and under restrictive
            terms.

            We believe the key to establishing FSIS' authority over the HACCP
            program and gaining access to plant records is the Grant of
            Inspection. In order to obtain a Grant of Inspection under current
            procedures:

               •   plants must apply.

               •   agree to conform to Grant of Inspection regulations.

               •   be found to be in compliance with regulations during an FSIS’
                   survey of the establishment.

            We believe FSIS needs to enhance the Grant of Inspection so that it
            is a contract that stipulates exactly what is required of the plant to be
            recognized as operating under the HACCP assurances, and
            specifies what FSIS' authorities are over that plant's operations.

            During the audit, we issued three management alerts that identified
            weaknesses in FSIS oversight procedures. We reported that one
            plant had not met minimum requirements for HACCP plans. We also
            reported that two plants own microbial testing showed the potential
            for pathogens in the product, but these results were not available to
            FSIS inspectors.

                                     We recommended that FSIS should
  KEY RECOMMENDATIONS                strengthen its management controls to
                                     provide greater oversight over HACCP
                                     implementation, pathogen testing, and
         independent reviews of plant and inspection activities. FSIS should
         also expand the language contained in the Grant of Inspection
         agreement to include the requirements and responsibilities required
         of the plant under the HACCP program and FSIS’ authority,
         oversight, and access to information regarding the plant’s operation.


USDA/OIG-A/24001-3-At                                              Section I, Page v
             We also recommend that FSIS use the Grant of Inspection as a
             contract, or enforceable agreement between the Government and
             the establishment signed by all parties and subject to review and
             renewal.

                                     In its May 18, 2000, written response to
     AGENCY RESPONSE                 the draft report, FSIS was in general
                                     agreement with the findings and
                                     recommendations. However, FSIS did
         not always provide specific details, timeframes, and actions taken or
         planned for each of the recommendations. Its specific comments
         and OIG’s position are presented in the relevant sections of the
         report for each finding. FSIS’ entire response is shown in exhibit D
         of the report.




Section I, Page vi                                      USDA/OIG-A/24001-3-At
                                            TABLE OF CONTENTS



EXECUTIVE SUMMARY ............................................................................................i
    RESULTS IN BRIEF..............................................................................................i
    KEY RECOMMENDATIONS.................................................................................v
    AGENCY RESPONSE.........................................................................................vi
INTRODUCTION.......................................................................................................1
    BACKGROUND...................................................................................................1
    OBJECTIVES......................................................................................................7
    SCOPE ...............................................................................................................7
    METHODOLOGY.................................................................................................8
FINDINGS AND RECOMMENDATIONS.....................................................................9
    CHAPTER 1........................................................................................................9
    HACCP PLANS WERE NOT ALWAYS COMPLETE ..............................................9
    FINDING NO. 1..................................................................................................11
    RECOMMENDATION NO. 1...............................................................................16
    FINDING NO. 2..................................................................................................19
    RECOMMENDATION NO. 2...............................................................................23
    FINDING NO. 3..................................................................................................26
    RECOMMENDATION NO. 3...............................................................................28
    FINDING NO. 4..................................................................................................29
    RECOMMENDATION NO. 4...............................................................................30
    CHAPTER 2......................................................................................................31
    FSIS NEEDS TO PLACE GREATER EMPHASIS ON PATHOGEN TESTING.........31
    FINDING NO. 5..................................................................................................32
    RECOMMENDATION NO. 5...............................................................................35




USDA/OIG-A/24001-3-At                                                                            Section I, Page vii
                                             TABLE OF CONTENTS



   RECOMMENDATION NO. 6...............................................................................36
   RECOMMENDATION NO. 7...............................................................................37
   FINDING NO. 6..................................................................................................38
   RECOMMENDATION NO. 8 ...............................................................................39
   FINDING NO. 7..................................................................................................40
   RECOMMENDATION NO. 9...............................................................................42
   FINDING NO. 8..................................................................................................44
   RECOMMENDATION NO. 10 .............................................................................45
   CHAPTER 3......................................................................................................47
   FSIS NEEDS TO DEFINE ITS OVERSIGHT ROLE IN THE HACCP SYSTEM
   AND HOLD PLANTS ACCOUNTABLE FOR NONCOMPLIANCE .........................47
   FINDING NO. 9..................................................................................................48
   RECOMMENDATION NO. 11 .............................................................................52
   RECOMMENDATION NO. 12 .............................................................................52
   RECOMMENDATION NO. 13 .............................................................................53
   FINDING NO. 10................................................................................................54
   RECOMMENDATION NO. 14 .............................................................................55
   FINDING NO. 11................................................................................................55
   RECOMMENDATION NO. 15 .............................................................................57
   FINDING NO. 12................................................................................................58
   RECOMMENDATION NO. 16 .............................................................................59
   RECOMMENDATION NO. 17 .............................................................................60
   FINDING NO. 13................................................................................................60
   RECOMMENDATION NO. 18 .............................................................................62




Section I, Page viii                                                           USDA/OIG-A/24001-3-At
                                            TABLE OF CONTENTS



  FINDING NO. 14................................................................................................64
  RECOMMENDATION NO. 19 .............................................................................67
  RECOMMENDATION NO. 20 .............................................................................67
  EXHIBIT A – SITES VISITED..............................................................................69
  EXHIBIT B – NUMBER OF HACCP PLANS REVIEWED ......................................70
  EXHIBIT C – COMPARISON OF PLANT CCP’S TO FSIS MODEL........................71
  EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT ..................................75
  ABBREVIATIONS..............................................................................................91




USDA/OIG-A/24001-3-At                                                                     Section I, Page ix
                          INTRODUCTION

                                        The Hazard Analysis and Critical Control
        BACKGROUND                      Point (HACCP) program has been
                                        undergoing implementation since the
                                        beginning of 1998. Endorsed by the
          National Advisory Committee on Microbiological Criteria for Foods,
          HACCP offers a new approach to reducing hazards in the food
          supply by stressing the prevention of contamination before it occurs
          rather than dealing with it after its detection. Before the advent of
          HACCP, the U.S. Department of Agriculture’s (USDA) Food and
          Safety Inspection Service (FSIS) monitored the meat and poultry
          slaughter plants under a system of continuous inspection. Under
          HACCP, plants monitor their own production to identify and remove
          the threat of contamination. FSIS is responsible for oversight to
          ensure that the plants have implemented an adequate HACCP
          program.

           The HACCP program requires two types of microbial testing,
           Salmonella and Escherichia coli-Biotype 1 (generic E. coli ). All
           plants are required to pass a Salmonella testing series administered
           by the agency. Slaughter facilities must also perform generic E. coli
           testing and make the testing results available to FSIS inspectors.
           FSIS has also developed a directed testing program, outside of
           HACCP, to identify harmful pathogens, such as Listeria
           monocytogenes (LM) and E. coli 0157:H7. The directed testing
           program administered by FSIS is designed to provide assurances on
           a nationwide basis that pathogen reduction measures are working.

           The requirements of HACCP were contained in the Pathogen
           Reduction and HACCP rule, issued by USDA in July 1996. The rule
           requires plants to address each of seven principles in implementing
           their HACCP plans.

           •   Principle No. 1: Conduct a hazard analysis – Plants determine
               the food safety hazards that are likely to occur and identify the
               measures needed to control them. Hazards can be biological
               (bacteria, etc.); chemical (pesticides, etc.); and physical (metal
               fragments from machinery, etc.)




USDA/OIG-A/24001-3-At                                          Section I, Page 1
             •   Principle No. 2: Identify critical control points (CCP) - Plants
                 identify a point in the production process where controls can be
                 applied to eliminate the hazard.

             •   Principle No. 3: Establish critical limits for each control
                 point - Plants set the maximum and/or minimum values (such as
                 temperatures) at which a hazard (such as bacterial growth) must
                 be controlled.

             •   Principle No 4: Establish monitoring requirements - In-plant
                 quality control reviewers monitor the CCP’s to ensure their
                 operation.

             •   Principle No. 5: Establish corrective actions - Plants define
                 actions to be taken when monitoring discloses a deviation from a
                 critical limit.

             •   Principle No. 6: Establish record-keeping procedures -
                 Plants are required to maintain documentation of their hazard
                 analysis and HACCP plans, as well as records of their monitoring
                 of control points and establishment of critical limits.

             •   Principle No. 7: Establish verification procedures - Plants
                 must ensure that their HACCP plans accomplish their intended
                 goal.

             Since publishing the HACCP regulations in July 1996, USDA has
             issued several clarifications and modifications including new
             requirements that all HACCP plans must contain at least one CCP
             and must be self-contained documents that do not refer to good
             manufacturing practices as mechanisms for controlling hazards.

             In May 1999, FSIS published a series of generic HACCP plans to
             assist the industry in writing their own plant specific plans. The
             generic plans provide guidance on the elements that should be
             included in the documents and recommend CCP’s for the various
             processes covered. Examples of process flow diagrams are
             provided to illustrate the type of chart needed as the first step in
             performing the hazard analysis.




Section I, Page 2                                         USDA/OIG-A/24001-3-At
           The FSIS suggested process flow diagram for making fresh pork
           sausage, for example, follows:

           Figure 1. Process Flowchart



              RECEIVING          RECEIVING
              PACKAGING           NONMEAT
              MATERIALS         INGREDIENTS
                                                                       RECEIVING
                                                                         MEAT


                                  STORAGE
                                  NONMEAT                               STORAGE
                                INGREDIENTS                               MEAT
                                                                         (COLD)


                                                                        ASSEMBLE/
                                 ASSEMBLE/           GRIND/
                                                                          WEIGH
                                 PRE-WEIGH           BLEND
                                                                          MEAT
                                  NONMEAT
                                INGREDIENTS



                                                     SAUSAGE
                                                                          REWORK
                STORAGE                              STUFFER
               PACKAGING
               MATERIALS

                                                    PACKAGING
                                                       AND
                                                     LABELING




                                                    FINISHED
                                                    PRODUCT
                                                    STORAGE
                                                     (COLD)




                                                    SHIPPING




         The models also provide examples of the recommended elements to
         include in the hazard analysis. One page of the FSIS suggested
         hazard analysis form for raw ground product follows:




USDA/OIG-A/24001-3-At                                          Section I, Page 3
     Figure 2. Hazard Analysis
       Process       Food Safety     Reasonably       Basis         If Yes in Column 3,     Critical
        Step           Hazard         Likely to                    What Measures Could      Control
                                       Occur?                      be Applied to Prevent,    Point
                                                                   Eliminate, or Reduce
                                                                      the Hazard to an
                                                                     Acceptable Level
       Grind/      Biological –
       Blend       None
                   Chemical –
                   None
                   Physical –           Yes       Plant records    In-line magnets are        3P
                   Metal                          show that        installed on the
                   contamination                  during the       stuffing lines
                                                  grinding
                                                  process metal
                                                  contamination
                                                  is likely to
                                                  occur.
       Sausage
       Stuffer     Biological –
                   None
                   Chemical –
                   None
                   Physical - None
       Rework      Biological -         No        Rework left at
                   Pathogens                      the end is
                                                  condemned or
                                                  used in a
                                                  cooked product
                                                  at the plant.
                   Chemical –
                   None
                   Physical –
                   None

                 The hazard analysis page illustrates the identification of a CCP
                 (listed as “3P” in the model) for a physical hazard related to the
                 grind/blend process. A potential biological hazard was also identified
                 for the rework process step but was rated as not reasonably likely to
                 occur because the reworked product was either condemned or
                 cooked if any was left at the end of a production run. The analytical
                 process illustrated on the form page is to be followed for every
                 processing step shown on the process flowchart.

                 The FSIS model plan also shows how the CCP, or 3P, is to be
                 documented in the HACCP plan (1) a critical limit is set for the CCP,
                 (2) monitoring procedures are defined, (3) a system of records to
                 document monitoring and corrective actions is specified,


Section I, Page 4                                                  USDA/OIG-A/24001-3-At
              (4) verification procedures are listed, and (5) corrective actions for
              deviations above the critical limit are shown as illustrated below.

 Figure 3. Documentation of Critical Control Point
   CCP #     Critical      Monitoring        HACCP     Verification       Corrective Actions
    and      Limits        Procedures        Records   Procedures and
  Location                     and                     Frequency
                           Frequency
    3P       No metal    Maintenance      In-Line      Maintenance        Stuffing line supervisor
   Grind/    particles   personnel will   Magnet Log   supervisor will    will control and segregate
   Blend     to exceed   check                         verify in-line     affected product.
             1/32        the in-line      Corrective   magnet is          Maintenance personnel
             inches      magnets          Action Log   functioning.       will identify and eliminate
                         every two                                        the problem with the in-
                         hours.                        QA will verify     line magnets.
                                                       that the in-line   Preventive maintenance
                                                       magnets are        program will be
                                                       functioning as     implemented.
                                                       intended by        QA will run seeded
                                                       running a          sample through in-line
                                                       seeded sample      magnets after repair.
                                                       through the in-    All potentially
                                                       line magnets       contaminated product will
                                                       twice per shift    be run through in-line
                                                       (once in the       magnets and metal
                                                       AM and once        detector prior to shipment.
                                                       in the PM).



              The model HACCP plan also includes examples of other needed
              documents under HACCP. These include a product description
              showing such factors as end use, type of packing, intended
              customers, shelf life, labeling, handling requirements, etc., and
              suggested forms to use for CCP monitoring. Although the use of the
              model is not mandatory, it does provide an illustration of the types of
              documentation and records that should be available under HACCP.
              It also shows how the documentation flow follows the analytical
              process used in developing a HACCP program.

              In addition to requiring the development of HACCP plans, regulations
              specify three other requirements that plants must comply with:

              •   Plants must ensure hygienic facilities. They must develop and
                  implement written Sanitation Standard Operating Procedures
                  (SSOP) to document such activities as plant cleaning schedules
                  and to track adverse sanitary conditions that recur.




USDA/OIG-A/24001-3-At                                                         Section I, Page 5
             •     Slaughter plants must maintain a microbial testing program.
                   They must perform regular testing for generic E. coli, and they
                   must meet pathogen reduction performance standards for
                   Salmonella (plants producing raw Meat products also must meet
                   the Salmonella performance standards).

             •     Plants must ensure a product-safe environment. They must
                   implement a system of preventive controls designed to improve
                   the safety of the product, and they must maintain records
                   documenting that the controls are working as intended.

             Although the HACCP final rule was issued in July 1996, the
             implementation dates for plants were based on the size of the plants.
             The largest plants (500 or more employees) were required to have
             their HACCP plans in place by January 1998, small plants by
             January 1999. Very small plants (nine or fewer employees) had until
             January 2000. SSOP and E. coli testing requirements became
             effective in January 1997. Salmonella pathogen reduction standards
             became effective with the implementation dates of HACCP.

             In addition to the HACCP and SSOP programs, plants also develop
             their own procedures and follow the procedures and processes
             recommended by industry groups (Good Manufacturing Processes).
             These programs that are outside the documented HACCP plan are
             intended to provide additional controls to ensure food safety.

             Food borne disease may cause an estimated 76 million illnesses,
             325,000 hospitalizations, and 5,000 deaths in the United States each
             year according to the Centers for Disease Control. These estimates
             show that certain “Known Foodborne Pathogens” cause the following
             health problems.

             Table 1: Foodborne Pathogens
                       Disease/Agent       Illnesses      Hospitalizations   Deaths
                 Salmonella                   1,341,873             15,608        553
                 Listeria monocytogenes           2,493              2,298        499
                 Toxoplasma gondii              112,500              2,500        375
                  Campylobacter               1,963,141             10,539         99
                 E. coli 0.157:H7                62,458              1,843         52



             While plants are accountable under HACCP for producing safe food,
             FSIS is responsible for setting appropriate food safety standards,
             maintaining inspection oversight to ensure those standards are met,


Section I, Page 6                                            USDA/OIG-A/24001-3-At
           and maintaining a strong enforcement program to deal with plants that
           do not meet the regulatory standards. Approximately 7,500 Federal
           inspectors carry out inspection law in some 6,000 plants nationwide.
           FSIS conducts its inspection activities through its National office in
           Washington, D.C.; a technical service center in Omaha, Nebraska; 17
           district offices; and field offices where plants are located.

           In December 1999, the General Accounting Office (GAO) issued,
           “Meat and Poultry – Improved Oversight and Training Will Strengthen
           New Food Safety System,” Report No. GAO/RCED-00-16. In this
           report, GAO concluded that the HACCP regulations, along with
           implementing directives and other guidance, were consistent with the
           seven HACCP principles endorsed by the Advisory Committee. In
           addition, GAO reported that HACCP training for inspectors was
           generally adequate although weaknesses in the training program, such
           as the inspectors’ authority to ask for changes in the HACCP plans,
           when inspectors should collect Salmonella samples, and when it was
           appropriate to issue noncompliance reports, affected their ability to
           ensure consistent and effective oversight of the HACCP systems.
           GAO also concluded that the FSIS appeal process contained
           inconsistent and incomplete data that precluded FSIS from effectively
           analyzing the HACCP-related actions that were appealed or the extent
           to which plants appealed inaccurate reports. We coordinated with
           GAO representatives to avoid duplication of efforts.

                                      The overall objective of this audit was to
         OBJECTIVES                   review FSIS’ implementation of HACCP
                                      regulations and to determine the
                                      effectiveness of the program.
          Specifically, we determined whether plants (1) analyzed hazards and
          established CCP’s, (2) implemented microbial testing and other
          pathogen controls, and (3) developed control procedures, including
          SSOP’s, and maintained records of their effectiveness.

                                       The audit fieldwork was performed at the
            SCOPE                      FSIS National Office in Washington,
                                       D.C.; 6 district offices; and 15 field
                                       offices located at industry plants in
           Alabama, Arkansas, Iowa, Kansas, Minnesota, Missouri, Nebraska,
           and South Dakota (see exhibit A). The locations visited included 11
           plants that slaughtered poultry, swine, or cattle. (Ten of the
           slaughter plants also processed meat products.) We also visited four
           plants that processed only meat products and frozen foods. We
           reviewed FSIS policies and procedures at the district and field offices
           visited. Our reviews at the plant locations included evaluations of the

USDA/OIG-A/24001-3-At                                           Section I, Page 7
             plants’ written SSOP’s, HACCP plans, pathogen testing procedures,
             and responses to FSIS noncompliance reports. Our evaluation of
             HACCP plans included an indepth review of 57 of the 107 plans in
             effect at the 15 plants visited. (See exhibit B.) We also toured the
             plant locations and observed plant operations including pre-
             operational clean-up procedures and monitoring activities at the
             designated CCP’s. FSIS provided review officers from the technical
             service center in Omaha, Nebraska, to assist in our reviews and
             ensure our conclusions were technically accurate and consistent with
             regulations. We judgmentally selected the districts and plants to be
             visited. In selecting the sites to be reviewed, we attempted to obtain
             a variety of operations. We selected both problem plants and plants
             which FSIS records showed were operating satisfactorily. In making
             our selections we considered the number of violations cited by
             inspectors, assigned tasks not performed, laboratory test results,
             animals slaughtered, products processed, consultations with FSIS
             officials, and geographical areas.

             Fieldwork was conducted during the period April though December
             1999. We conducted this audit in accordance with Government
             auditing standards.

                                            To fulfill our objectives, we performed the
        METHODOLOGY                         following fieldwork.


             •      We analyzed documents and conducted interviews with FSIS
                    Headquarters officials.

             •      We contacted officials of the food industry and representatives
                    of the Centers for Disease Control and USDA’s Agricultural
                    Research Service (ARS).

             •      We reviewed FSIS’ regulations, instructions, procedures, and
                    studies; published reports; media releases; and other
                    Government reviews and studies.

             •      We conducted site visits to the FSIS National Office, FSIS’
                    technical service center, district offices, and field offices located
                    at industry plants for review and analysis.




Section I, Page 8                                            USDA/OIG-A/24001-3-At
                 FINDINGS AND RECOMMENDATIONS


CHAPTER 1                    HACCP PLANS WERE NOT ALWAYS COMPLETE

                    In order to accomplish its food safety mission, we believe that
                    everything that happens within meat and poultry establishments from
                    the receiving dock to the shipping dock, must come under FSIS'
                    oversight. We believe that the HACCP program is in effect an
                    umbrella covering the plant’s documented HACCP plan, its SSOP
                    program, and its good manufacturing processes program.           We
                    believe FSIS should have access to everything that happens
                    regarding meat and poultry from slaughter through processing -
                    including access to all records and pathogen testing results.

                    Under the HACCP system, Federal regulations require every meat
                    and poultry plant to determine the food safety hazards likely to occur
                    in its production process, list the CCP’s at which preventive measures
                    need to be established to reduce or eliminate each of the hazards,
                    and identify the measures the plant can apply 1. This information is to
                    be contained in a formal HACCP plan and must include all hazards -
                    biological, chemical, and physical - that may cause food produced by
                    the plant to be unsafe for human consumption. The regulations also
                    require the HACCP plan to be a self-contained document and not
                    refer to such extrinsic criteria as “good manufacturing practices” that
                    cannot be evaluated2. Failure of any plant under HACCP to develop
                    and implement an adequate HACCP plan and system may result in an
                    FSIS determination that the plant is producing adulterated products3.

                    We reviewed 57 HACCP plans from 15 plants nationwide, and found
                    that at least 1 plan was incomplete at 14 of these plants. Plant
                    officials’ neither identified all CCP’s nor listed all hazards to their
                    product, or even showed all the stages of their production that might
                    be exposed to hazards. Almost half the plans prepared by one plant
                    indicated that no food safety hazards were likely to occur during the
                    production process, a conclusion that FSIS does not believe possible


1
    9 Code of Federal Regulations (CFR) § 417.2(a)(1), and 9 CFR § 417.2.
2
    Federal Register, vol. 63, No. 20, dated January 30, 1998.
3
    9 CFR § 417.2(e).

USDA/OIG-A/24001-3-At                                                       Section I, Page 9
                    for any production process4. Nevertheless, on the strength of that
                    assertion, this plant listed no CCP’s and no preventive measures.
                    Nine other plants named their operating procedures as sufficient to
                    control existing hazards in lieu of establishing CCP’s. Most plants
                    tended to limit the number of hazards and CCP’s they reported
                    (thereby limiting FSIS oversight), even though the number of actual
                    controls in place was larger and generally appeared to satisfy the
                    HACCP requirements. Representatives from FSIS’ Technical Service
                    Center visited the plants’ with us and assisted us on our reviews of
                    plants’ HACCP plans.

                    FSIS inspectors and district office officials believed that plants
                    abbreviated their HACCP plans as a measure to reduce FSIS
                    oversight. Because the HACCP concept limits FSIS monitoring to
                    only those controls declared in the HACCP plan, plants can
                    distinguish between the controls available to Federal scrutiny and
                    those in actual operation. In some cases, plants have even declared
                    their HACCP plans’ proprietary documents and do not allow FSIS to
                    copy them or release their contents.

                    HACCP plans also failed to establish a scientifically based tolerance
                    for all of the hazards that were identified. Maximum temperature
                    requirements for coolers differed between plants processing similar
                    products. One plant required beef not to exceed 45 degrees prior to
                    boning; another plant allowed the beef to reach 55 degrees. Critical
                    limits were established by plants primarily based on historical practice,
                    not scientific data. Some tolerances were not even implemented. At
                    plants that prescribed temperature limits, corrective action was not
                    always taken when temperatures exceeded the limits.

                    We determined that FSIS did not enforce a greater disclosure in the
                    HACCP plans because it was unsure of its authorities. Although
                    FSIS had announced that it would treat failure to specify at least one
                    CCP for each food safety hazard as a failure to implement a HACCP
                    plan that conforms to HACCP requirements 5, it had not fully
                    implemented this notice. Inspectors-in-Charge (IIC) at each plant
                    review the HACCP plans using a checklist 6 that covers the minimum
                    regulatory requirements in 9 CFR 417 but there are no procedures
                    for FSIS to specifically approve the HACCP plans. Inspectors also



4
    Federal Register, vol. 63, No. 20, dated January 30, 1998.
5
    Federal Register, vol. 63, no. 20, dated January 30, 1998.
6
    FSIS Directive 5000.1, Attachment 2.



Section I, Page 10                                                USDA/OIG-A/24001-3-At
                    stated that plants could change their HACCP plans without notifying
                    FSIS of the change.

                    The inspectors either accept the plans as written or reject them
                    based on failure to meet regulatory requirements. The inspectors did
                    not know if they had the authority to require specific changes in the
                    plans. Also, district or other FSIS officials do not routinely review
                    HACCP plans as part of management control responsibilities.
                    Chapter 3 shows that FSIS had not performed independent reviews
                    to ensure programs under the food safety umbrella were operating
                    as intended. We are recommending that FSIS improve its oversight,
                    clarify requirements for HACCP plans including mandating minimum
                    CCP’s, and provide field personnel with clear authority to enforce this
                    mandate.

                                             Plants had not identified, documented
           FINDING NO. 1                     CCP’s in their food manufacturing
                                             processes or established corrective
    ALL CRITICAL CONTROL POINTS              measures for all CCP's. Some of the
        WERE NOT IDENTIFIED                  plants visited had developed HACCP
                                             programs prior to implementation of the
                                             regulatory requirements and had revised
              their existing program after the regulations went into effect. We found
              (1) plants did not develop CCP's for key processes, (2) the number of
              CCP's was generally reduced (frequently to one per plan) after
              implementation of HACCP, (3) plants with similar processes did not
              have similar CCP's and were not consistent with the FSIS model
              HACCP plans, and (4) plants frequently showed Good Manufacturing
              Processes (GMP), SSOP’s, USDA inspection activities, and plant
              operating procedures in lieu of CCP monitoring for identified hazards.
              Regulations require that the HACCP plans must contain a list of the
              CCP’s for each of the identified food safety hazards7. FSIS IIC’s cited
              a lack of specific guidance for identifying CCP’s and lack of authority
              to require additional CCP’s as the reasons for not requiring plants to
              establish needed CCP’s. Inspectors also stated that plants could
              change their HACCP plans without notifying FSIS of the change.
              Establishments need to set up and monitor CCP's appropriate for their
              processes to ensure food safety is not compromised and prevent a
              loss of control over their food production processes.




7
    9 CFR § 417.2 (c) (2).

USDA/OIG-A/24001-3-At                                                   Section I, Page 11
             A.      Plants Did Not Develop CCP's for Key Processes

                     FSIS inspectors at the plants, circuit supervisors, and district
                     managers did not always require plants to meet minimum
                     requirements for HACCP plans. For example in August 1999, we
                     issued Management Alert No. 3 to FSIS stating that 8 of 20
                     HACCP plans prepared by Plant L included no CCP's. These
                     plans indicated that no significant food safety hazards were likely
                     to occur during the production processes dealing with raw
                     product. (See Finding No. 3.) Therefore, the HACCP plans did
                     not include any CCP's where critical limits were established and
                     monitored, and where controls could be applied to prevent or
                     eliminate food safety hazards or reduce them to acceptable
                     levels. For example, the plant identified no CCP's for its pork
                     sausage, although FSIS' Generic HACCP Model, dated May
                     1999, lists six CCP's for raw, ground product. (See exhibit C
                     page 56.)

                     Plant L's assertion that there were no significant food safety
                     hazards likely to occur during those processes was doubtful.
                     The plant had a history of microbial contamination of products; it
                     had not passed established FSIS performance standards on
                     Salmonella testing (more than 6 of a series of 55 samples were
                     positive) for the first two series of tests before finally passing the
                     standards on its third attempt.

                     On March 25, 1999, FSIS national office officials developed a
                     model letter to be issued to plant management when inspection
                     personnel identified an establishment where all food safety
                     hazards, reasonably likely to occur, may not be addressed or
                     controlled in the HACCP plan. The letter, referred to as a "30-day
                     letter", gave a plant 30 days to reassess its HACCP plans, and
                     required the plant to provide scientific and technical data to
                     support any conclusion that it had no food safety hazards likely to
                     occur during its production process. However, FSIS did not send
                     plant L such a letter. The IIC said that she did not have a
                     problem with the lack of CCP's in the plant's HACCP plans.
                     Other inspectors at the plant said that they felt they had no
                     authority to question the HACCP plans.

                     The district manager told us that he was not aware that 8 of
                     20 HACCP plans at this plant had no CCP’s. Although he had
                     sent out 30-day letters to other plants in the district, the
                     responsible circuit supervisor had not identified this plant as



Section I, Page 12                                             USDA/OIG-A/24001-3-At
                requiring the letter. He said he had been told by both the IIC and
                plant personnel that the hazard analysis indicated there were no
                significant food safety hazards reasonably likely to occur during
                the processes covered by the eight plans. Therefore, he did not
                intend to take any further action concerning the lack of CCP's.

                In reply to Management Alert No. 3, the agency agreed to issue
                a 30-day reassessment letter to the establishment. The district
                office was to review all HACCP plans within the circuit to
                determine if similar conditions existed within other
                establishments under HACCP. In addition, the district manager
                was to address failures in the execution of inspection
                methodology by inspection personnel and frontline supervisors
                through the procedures identified under the supervisory
                performance system.

                We identified similar conditions for plants K and O. These plants
                had not established any CCP's for their raw, not ground
                products. A technical service center representative told us that
                at the initiation of HACCP, FSIS allowed slaughter and
                fabrication (cutting meat into commercial cuts, boning, etc.) to be
                under one HACCP plan. He said that if a plant had at least one
                slaughter CCP, inspectors might not have required a CCP for the
                raw, not ground fabrication process. It was his position now that
                each process should have a CCP.

                Plant C had not established a CCP for cooling hot dogs after
                cooking. We found serious deficiencies (i.e., the plant had no
                documented corrective actions or preventative measures to
                explain how deviations from minimum/maximum temperatures
                would be corrected and/or prevented in the plant’s chilling of hot
                dogs), which could pose a health threat. Without written
                procedures for controlling the cooling process, including
                corrective actions when temperature limits were exceeded, we
                could not readily determine whether the plant properly dealt with
                the food safety issues related to chilling hot dogs after cooking.

           B.   Plants Limited CCP's

                Our observation of plant operations showed that plants actually
                monitored many more points in the processes than they
                identified as CCP’s, and the HACCP plans did not appear to
                reflect all of the hazard controls actually in place. Also, plant F
                had already implemented its own HACCP program prior to
                implementation of the regulatory requirements, then revised that

USDA/OIG-A/24001-3-At                                          Section I, Page 13
                     program by reducing the number of CCP’s from six to one after
                     regulations went into effect. Therefore, although, the control
                     processes at the other five points continued in effect, plant F
                     was able to avoid FSIS oversight on them.

                     In addition, it is common for metal shavings to be incorporated
                     into ground meat products because of fabrication and grinding
                     operations. Only one of five plants with a raw, ground process
                     had established a CCP for metal detection. Our review at Plant
                     A found that metal detection was initially established as a CCP.
                     Although the plant continued to monitor product for metal, plant
                     management made the decision to delete this step from the
                     HACCP plan.

             C.      Plants with Similar Processes Had Widely Differing CCP's

                     FSIS inspectors told us that they believed that some plants
                     intentionally kept the number of CCP's low to reduce the
                     involvement of FSIS, reduce the likelihood that FSIS could find
                     justification to shut down the plant (i.e., withdraw inspection
                     service) and reduce likelihood of adverse or confidential
                     information becoming public.

                     Exhibit C shows that plants frequently established a minimum of
                     CCP's in comparison to the HACCP models issued by FSIS. For
                     example, only 2 of 11 plants producing raw, not ground product,
                     had established more than one of the four CCP's outlined in
                     FSIS’ model for that process. In addition, four plants having fully-
                     cooked products had established only one or two CCP’s that
                     corresponded to the seven CCP’s listed in FSIS’ model. (See
                     Exhibit C.)

             D.      Programs and Procedures Were Used in Lieu of CCP's

                     Plants showed GMP, SSOP, USDA inspection activities, and
                     plant operating procedures in lieu of establishing CCP’s for
                     identified hazards at 9 of the 15 plants. Regulations require
                     that HACCP plans must be self-contained documents and
                     references to programs and procedures outside of the HACCP
                     program are not sufficient. Plants frequently identified a hazard
                     as significant but cited programs and procedures in lieu of
                     establishing a CCP. In other cases, plants documented a
                     hazard as not significant and justified their decision by citing
                     programs and procedures they believed made the hazard not



Section I, Page 14                                            USDA/OIG-A/24001-3-At
               likely to occur. Consequently, inspectors found it very difficult
               to monitor non-CCP preventive measures in programs outside
               HACCP and questioned if they had the authority to require a
               CCP. As a result, it was unclear whether the programs and/or
               procedures cited in the HACCP plans were monitored by FSIS
               and provided effective controls or preventive measures for the
               associated food safety hazards.

               Using prerequisite programs, such as GMP's, SSOP's, and
               plant operating procedures outside HACCP as justification for
               determining that a food safety hazard is not likely to occur (not
               a significant hazard) is not acceptable. It is very difficult for
               FSIS to determine whether the prerequisite programs are
               effective in reducing the likelihood that specific hazards will
               occur. These programs have no documentation requirements
               to show that they will prevent a specific hazard in the production
               process. We noted that plants carried out extensive monitoring
               activities outside of their HACCP programs, which showed that
               FSIS needed the authority to verify these preventive or control
               measures on an on-going basis. For example, plants used
               detection devices to control metal particles from entering their
               products during the fabrication or grinding processes without
               including a CCP in their HACCP plans that subjected it to FSIS
               monitoring. In addition, FSIS has no assurance that plant
               operating procedures have been adequately developed and
               implemented. For example, the hazard analysis for Plant C
               cited operating procedures as justification for not having a CCP
               to prevent the growth of pathogens during storage of perishable
               products. Our review disclosed that the plant had not yet
               developed the written operating procedures referenced in the
               HACCP plan.

               The number of instances (processing steps) noted at the nine
               plants where GMP's, SSOP's, USDA inspection activities, and
               plant operating procedures were used in lieu of CCP's is shown
               below.




USDA/OIG-A/24001-3-At                                        Section I, Page 15
             Table 2: Prerequisite Programs Used in Lieu of CCP’s
                                        Number of Times                      Number of Times
                                Program Outside HACCP Shown As        Program Outside HACCP Shown
                                Preventive Action For a Significant   As Reason Hazard Not Considered
                  Plant                      Hazard                             Significant
                    A                              82                               0
                    B                              29                               0
                    C                               0                               4
                    E                               0                               1
                    F                               0                               2
                    H                               0                               7
                    I                              32                               22
                    M                               0                               4
                    O                               6                               0



                          The cited deficiencies occurred because the FSIS inspectors who
                          reviewed the plant HACCP plans either were not aware of all
                          requirements for HACCP plans or did not believe they could
                          require the HACCP plans to be changed for issues that did not
                          clearly constitute a failure to meet regulatory requirements. The
                          inspectors were faced with the choice to either reject the plans on
                          regulatory grounds or accept them as written. It should be noted
                          that the cases cited above would constitute a violation of
                          regulatory requirements because the HACCP plans would not
                          meet the intent of 9 CFR 417.

                          However, the requirement that HACCP plans must be self-
                          contained documents was not clearly stated in the published
                          regulations but was added in a clarification to the regulations in
                          the Federal Register dated January 30, 1998. 8

                                       Implement a system of oversight, such as
      RECOMMENDATION NO. 1             district office or independent reviews, to
                                       ensure HACCP plans contain minimum
                                       required CCP’s based on the HACCP
            models.     Issue instructions that provide clear guidance on
            requirements for establishing CCP’s and inspector’s authority to
            require changes to documented CCP’s. Revise the checklist used to
            evaluate HACCP plans accordingly, including:

                          a. mandating minimum CCP requirements based on type of
                             process, as indicated by the HACCP models,

8
    Federal Register/Vol. 63, No. 20/ Page 4562.


Section I, Page 16                                                      USDA/OIG-A/24001-3-At
                b. specifying that field office personnel have the authority to
                   approve CCP's and to require additional CCP’s as needed in
                   their assigned plants, and

                c. requiring the establishments to inform the IIC of any proposed
                   change in the HACCP plan, thereby allowing FSIS review
                   prior to the change.

           Agency Response

           In its May 18, 2000, response to the draft report, FSIS stated:

                FSIS agrees that a system of oversight such as independent
                reviews is necessary. Development of the system of
                oversight i.e., the In-Depth Verification (IDV) has been
                underway for over one year. In Fiscal Year (FY) 2000, FSIS
                initiated the IDV Review. The IDV protocol is designed to
                evaluate the essential features of establishments’ Pathogen
                Reduction/HACCP systems. It was developed with input
                from the National Advisory Committee on Meat and Poultry
                Inspection. It verifies Pathogen Reduction requirements and
                includes scientific and technical criteria drawn from the
                National Advisory Committee on Microbiological Criteria for
                Foods (NACMCF). It contains 10 checklists addressing
                SSOPs, E. coli testing and HACCP requirements. Each
                checklist has a documentation component and a system
                verification component.

                FSIS issued instruction to provide clear guidance to plants
                on requirements for establishing CCPs and inspector’s
                authority in relation to CCPs. * * * FSIS agrees that there
                may be some inspectors who still may not fully understand
                their authority with regard to the PR/HACCP rule. * * * FSIS
                is conducting a series of National Supervisory Conferences
                to reinforce a full understanding of inspection authorities.
                Circuit Supervisors through work unit meetings will share the
                information covered in these meetings at the in-plant level.
                FSIS will also continue to issue policy directives and notices
                to explain inspection verification methods and regulatory
                actions.

                Furthermore, FSIS believes that PR/HACCP system
                implementation was conducted effectively within constraints
                of limited training and of a field force, which does not,

USDA/OIG-A/24001-3-At                                           Section I, Page 17
                     collectively, possess all the skills necessary to perform
                     inspection fully consistent with HACCP precepts. Now that
                     implementation has been completed, FSIS agrees that
                     additional instructions need to be developed for inspection
                     program personnel to begin assessing the completeness of
                     the HACCP plans.

                     FSIS will reaffirm to its inspection program personnel that
                     the Agency has sufficient authority to accomplish its
                     statutory mission of protecting the public health and welfare
                     of consumers by preventing the distribution of products that
                     are unwholesome, otherwise adulterated, or misbranded.
                     As a first step, FSIS has begun developing a series of
                     limited surveys, which should be completed by the end of
                     July 2000, to ascertain if there is need to make any
                     regulatory changes or new instructions pertaining to
                     HACCP. Furthermore, the Agency is developing an FSIS
                     Notice, which is intended to provide instruction to inspection
                     program personnel regarding a three-step approach on how
                     to verify establishment compliance with hazard analysis and
                     HACCP Plan requirements. This Notice should be issued
                     by October 2000.

                     FSIS will not approve the CCPs selected, or require
                     notification by the plant that changes have been made to the
                     HACCP plan. FSIS believes that its role is one of verification
                     that the HACCP plan is being implemented as defined by
                     the establishment, and that the scientific basis and rationale
                     for the HACCP plan is credible. FSIS will challenge the
                     adequacy of HACCP plans which are inadequately
                     supported. FSIS will not serve as a quality control function
                     for the establishment; the establishment is responsible for
                     producing safe product.

             OIG Position

             Although FSIS has implemented a system of oversight with
             independent reviews, we cannot reach management decision on the
             recommendation at this time. FSIS contends that it will not approve
             CCPs, or require notification by the plant that changes have been
             made to the HACCP plan.

             In verifying whether the scientific basis and rationale for the HACCP
             plan is credible, FSIS inspectors review CCPs and determine whether



Section I, Page 18                                           USDA/OIG-A/24001-3-At
             CCPs are sufficient to reduce or eliminate food safety hazards
             reasonable likely to occur. If CCPs are sufficient, the inspectors have
             in effect approved them.

             In addition, FSIS contends that it will not serve as a quality control
             function for the establishment. Although the establishment is required
             to verify its established controls, FSIS is responsible to ensure that
             establishments’ control processes are adequate and functioning. To
             reach management decision, we need the results of surveys and
             specific decisions made to revise regulations or instructions pertaining
             to HACCP. We also need to review the FSIS Notice regarding
             verification of establish compliance with hazard analyses and HACCP
             plan requirements. In addition, we concluded that it is essential for
             plant management to notify FSIS inspectors when changes are made
             to HACCP plans. This could be incorporated into the Grant of
             Inspection agreement. Without this requirement, plants could produce
             food from inadequate processes for extensive time periods without
             FSIS knowledge or verification. FSIS inspectors are already required
             to review HACCP plans when reassessments occur, but unless the
             plant notifies the inspectors they may not be aware of it.

                                        We found that critical limits and corrective
       FINDING NO. 2                    actions identified by plants were
                                        inadequate. (Plants were to establish
     CRITICAL LIMITS AND                critical limits for each CCP identified in
  CORRECTIVE ACTIONS WERE               the HACCP plan to control food safety
        INADEQUATE                      hazards. The critical limits were generally
                                        a numerical value, such as maximum or
                                        minimum          temperature,     maximum
          allowable defects, etc.) The critical limits were not always based on
          documented scientific data, prescribed corrective actions were not
          sufficient to control the identified hazard, and documentation was not
          sufficient to ensure proper actions were taken when critical limits were
          exceeded. In some cases, the prescribed corrective actions for
          deviations were either not appropriate or were not implemented.
          Further, FSIS established specific temperature requirements for some
          products but not others. FSIS inspectors did not ensure that critical
          limits were properly documented in the HACCP plans and that
          appropriate corrective actions were provided or documented when the
          limits were exceeded because they did not believe they had authority
          to require changes to HACCP plans. As a result, there was reduced
          assurance that hazards were properly controlled from monitoring
          critical limits and corrective actions for deviations from prescribed
          limits.



USDA/OIG-A/24001-3-At                                            Section I, Page 19
                   Federal regulations 9 state that the HACCP plan shall list the critical
                   limits of each CCP and specify that those limits shall be designed to
                   ensure that applicable targets or performance standards are met.
                   These regulations also state that the HACCP plan shall describe the
                   corrective action to be taken to ensure that the cause of the deviation
                   is eliminated and measures to prevent recurrence are established.

                   A.    Lack of Scientific Data to Support Critical Limits

                         There was no scientific data documented in plant files to
                         support critical limits established for various processes at seven
                         of the plants (Plants B, C, I, J, K, L, and M). We noted that
                         there were wide ranges in the maximum temperatures specified
                         for similar pork and beef processes at various locations (see
                         exhibit C and Table 3 below).




9
    9 CFR § 417.2 and 9 CFR § 417.3.


Section I, Page 20                                                USDA/OIG-A/24001-3-At
                  Table 3: Variations in Temperatures Used As Critical Limits
                      Product/
                                                                    PROCESS
                      Plant

                      Pork
                                     Slaughter - Cooler temperature cannot exceed 60 degrees.

                           K         Pork sausage - If the temperature of trimmings at the grinder exceeded 60
                                     degrees, corrective action was to be taken.

                                      Fabrication – Prior to cutting, carcasses cannot have a surface temperature
                            A        exceeding 45 degrees nor an average internal ham temperature exceeding 45
                                     degrees within 24 hours.

                                     Product - Prior to shipping variety meats, the dock temperature cannot
                                     exceed 50 degrees and the dock temperature for other products cannot exceed
                                     41 degrees. The trailer unit cannot exceed 40 degrees.

                                     Fabrication - Prior to cutting, carcasses cannot exceed 48 degrees, and the
                                     fabrication area room temperature cannot exceed 50 degrees.
                            C
                                     Pork sausage - If product temperature exceeded 45 degrees, grinding of
                                     product was to stop and corrective action taken.

                      Beef
                                     Fabrication – The surface temperature of meat was not to exceed 55 degrees
                                     prior to boning. (Plant documentation shows the boning CCP was set at 55
                            B        degrees because it was a temperature the plant could achieve and microbial
                                     testing at or below this temperature did not indicate excessive microbial
                                     growth.)

                                     Fabrication – Carcass surface temperature was not to exceed 45 degrees
                            I        prior to fabrication.
                      1
                          All temperatures are in Fahrenheit (F).



                                In contrast, we noted that poultry plants having similar
                                processes    also     had     similar maximum     temperature
                                requirements. According to technical service center personnel,
                                FSIS had set specific requirements for poultry products. 10
                                Temperature requirements had been considered for raw beef
                                and pork but never finalized.

                                Industry officials noted that it was very difficult and expensive
                                (particularly for small plants) to obtain scientific data to support
                                the establishment of critical limits.
10
     9 CFR §381.66.


USDA/OIG-A/24001-3-At                                                                    Section I, Page 21
                     B.   Corrective Actions Not Appropriate and/or Not Implemented

                          The prescribed corrective actions 11 to be taken for deviations
                          from critical limits were not appropriate for the deviation and/or
                          did not provide assurance that the problem was corrected at
                          four plants (Plants E, J, L, and M). For example, the
                          documented corrective action at Plant E for cases where the
                          temperature of raw, ground products exceeded 45 degrees
                          was to cool down the product or rework the meat into another
                          product. The plant’s HACCP coordinator said that since the
                          growth of pathogens could occur if the raw product exceeded
                          45 degrees, the appropriate corrective action would be to
                          rework (cook) the meat. The corrective measures for deviations
                          from the critical limits for 24 of 27 CCP’s at plant L and 8 of 12
                          CCP’s at plant J were not specific procedures related to the
                          product and process but rather were generic requirements
                          contained in the Federal regulations.          For example, the
                          corrective action shown for a CCP in plant L was:

                              Identify and eliminate the cause of the deviation.
                              Bring CCP under control. Establish measures to
                              prevent recurrence. Segregate and hold any affected
                              product.

                          We also found that the prescribed corrective actions were not
                          always followed at plants J and M. For example, in plant J, we
                          noted three instances where a temperature limit was exceeded.
                          The prescribed corrective action of cooling down the product
                          was only taken in two of the cases. At plant M, the internal
                          temperature of the product exceeded the critical limit at two
                          separate monitoring checks during one shift. There was no
                          documentation to show that any corrective action was taken.

                     C.   Critical Limit Documentation Discrepancies

                          At plants L and J, there were 16 cases where limits were unclear
                          or the monitoring activity occurred at a time that precluded
                          measuring the critical limit, (i.e., temperatures were taken either
                          before or after the time the product was required to meet the
                          limit). The critical limit at plant F for one CCP was documented
                          in the HACCP plan as "Zero Tolerance," but the plan stated that
                          if more than 3 of 10 discrepancies were noted, critical limits
                          were exceeded. At plant E, the critical limits for cooking beef
11
     9 CFR § 417.3


Section I, Page 22                                                USDA/OIG-A/24001-3-At
                for two HACCP plans did not include the time requirement
                associated with the specified cooking temperatures. Also, plant
                J's slaughter HACCP plan did not list the frequency to verify
                critical limits.

                                        Implement a system of oversight to
  RECOMMENDATION NO. 2                  ensure HACCP plans contain adequate
                                        critical limits and corrective actions are
                                        proper including:

                 a. issue instructions that provide clear guidance on
                    requirements for establishing critical limits and clarify the
                    authority of FSIS to require changes to critical limits
                    documented in the HACCP plan,

                 b. provide additional guidance (such as maximum
                    temperatures for raw beef and pork) and scientific data to
                    assist plants in establishing critical limits for standard types
                    of processes,

                 c. require plants to provide documentation of the scientific data
                    used to support critical limits for their manufacturing
                    processes, and

                 d. strengthen the supervisory and independent review process
                    to ensure critical limits and corrective actions for deviations
                    from critical limits are appropriate, documented, and can be
                    verified.

           Agency Response

           In its May 18, 2000, response to the draft report, FSIS stated:

                FSIS believes that it has issued instructions that provide
                clear guidance on requirements for establishing critical
                limits. (See 9 CFR 417.1 and 417.2.) It also believes that
                inspector authorities are clear, and that it is contrary to the
                philosophy of the PR/HACCP regulation for inspectors to
                “require” changes to critical limits or corrective actions
                documented in the HACCP plan. As stated by the
                NACMCF, strong plant management commitment is
                required for successful implementation of a HACCP plan,
                because it provides company employees with a sense of
                importance of producing safe food. FSIS believes that
                having inspectors “require” changes to the HACCP plan, as

USDA/OIG-A/24001-3-At                                           Section I, Page 23
                     suggested by this recommendation, would undermine the
                     effectiveness of the HACCP system within the plant. In
                     cases of noncompliance, or at any time when inspectors
                     have a concern about the safety or product being produced,
                     such as inadequate critical limits or ineffective corrective
                     actions, inspectors have effective authorities under the
                     HACCP regulation which they can use to address the
                     situation. * * *

                     With regard to recommendation (b), FSIS intends to provide
                     additional guidance, and scientific data to assist plants in
                     establishing critical limits for standard types of processes;
                     however, it will not specify “maximum temperatures”. FSIS
                     will prepare appropriate guidance for inspection program
                     personnel, and, if necessary, compliance guidance for
                     industry to address performance standards.

                     FSIS has a regulatory reform initiative to convert current
                     command-and-control regulations (which do specify things
                     such as maximum temperatures) to performance standards
                     (e.g., FSIS Directive 7111.1).           The corresponding
                     compliance guidance documents produced by FSIS are
                     being made available to establishments in an effort to
                     provide industry with specific control limits (e.g., time and
                     temperature) to achieve the performance standards. The
                     establishments can then incorporate the guidance
                     procedures into their HACCP plans and demonstrate,
                     through verification and validation, that the procedures are
                     being implemented properly and are effective. It is the
                     responsibility of establishments to identify specific
                     temperatures that are necessary to ensure that safe food is
                     produced.

                     Scientific data to assist plants in establishing critical limits for
                     standard types of processes were provided through the
                     generic HACCP models (references to scientific papers,
                     etc.). There are also many sources of such assistance that
                     have been widely available to plants during HACCP
                     implementation (universities, Extension Service personnel,
                     industry association materials). It is not the role of FSIS to
                     be the exclusive provider of scientific data to assist plants.
                     FSIS will continue to seek scientific information from the
                     scientific community at large, as industry should as well, and
                     FSIS will continue to provide scientific data as it relates to



Section I, Page 24                                               USDA/OIG-A/24001-3-At
                rulemaking and policy development. However, FSIS will not
                take on the responsibility for providing such data to plants.
                FSIS’ role in relation to scientific data and HACCP plans is
                to evaluate through verification activities the scientific and
                other supporting data plants use as the basis for decision-
                making used to develop HACCP plans.

                Therefore, FSIS agrees with recommendation (c) to “ensure
                that plants provide documentation of the scientific data used
                to support critical limits.” FSIS established the TSC in
                Omaha, Nebraska, in part to serve as a resource to
                inspection personnel and industry representatives when
                questions arose regarding such scientific data or critical
                limits.   The TSC hosted the HACCP Implementation
                Technical Conference in August 1999, to reinforce plants’
                responsibilities relative to validating HACCP plans with
                documentation such as scientific data. FSIS agrees to
                reinforce this with field inspection personnel through
                avenues such as the National Supervisory Conferences.

                FSIS agrees with recommendation (d) and has established
                the IDV review process as an independent review of plants’
                SSOPs and HACCP plans. The IDV protocol includes
                scientific and technical criteria drawn from the NACMCF.

           OIG Position

           FSIS inspectors can effectively require changes to the HACCP plan
           when inadequate food safety systems are found by withholding
           inspection until HACCP plan reassessment is performed to address
           the deviations. In reviewing HACCP plans, FSIS inspectors were
           either not requiring plants to provide scientific, technical, or regulatory
           documentation to support critical limits, or not questioning inadequate
           support provided by plants. Further instructions are needed for FSIS
           inspectors on what constitutes acceptable scientific, technical, or
           regulatory documentation.        With regard to section (b) of the
           recommendation, we agree with FSIS’ reform initiative to convert old
           regulations to new performance standards in an effort to provide
           industry data with specific control limits to achieve performance
           standards. However, to accept management decision, we need a copy
           of this Directive and the expected implementation date of this initiative.




USDA/OIG-A/24001-3-At                                            Section I, Page 25
                   With regard to sections (c) and (d), more specific details are needed on
                   how FSIS will ensure that plants provide adequate supporting
                   documentation and timeframes for completion.

                                         Hazard analyses were not complete or
          FINDING NO. 3                  were inaccurate.        Specifically, the
                                         analyses did not always identify or
      HAZARD ANALYSIS DID NOT            address all microbiological, physical, and
      SHOW ALL LIKELY HAZARDS            chemical food safety hazards that were
                                         reasonably likely to occur 12. We found
                                         HACCP plans and processes where no
             CCP's were identified because the hazard analysis did not show
             existing significant food safety hazards. (See Finding No. 1.) In
             addition, some hazard analyses omitted products and manufacturing
             processes, so no evaluation of hazards or identification of CCP's was
             done for the products or processes left out. We also found that the
             description of listed hazards was not always adequate to allow
             evaluation of the safety risk and the appropriateness of assigned
             preventive measures. Some hazard analyses were also not
             sufficiently documented to show whether all likely food safety
             hazards were identified and considered.

                   Because plant analyses did not show all food safety hazards, there is
                   reduced assurance that the plants properly identified and provided
                   preventive measures for the hazards. This reduced assurance
                   increases the possibility of contaminated or adulterated products
                   entering the market place. FSIS IIC’s cited a lack of specific
                   guidance for hazards, along with a lack of authority to require
                   specific hazards to be addressed, as the reasons for permitting
                   incomplete and inaccurate hazard analyses.

                   We reviewed 57 of 107 HACCP plans at the 15 plants and evaluated
                   the plants’ hazard analyses with the assistance of review officers
                   from FSIS’ technical service center in Omaha, Nebraska. Based on
                   our reviews and the opinions of the officials assisting us, we
                   identified defects in the analyses for one or more of the plans
                   reviewed at 4 of the 15 plants.

                   A.    All Food Safety Hazards Had Not Been Analyzed

                         The hazard analysis deficiency we found with the most serious
                         impact was where existing significant food safety hazards had

12
     9 CFR § 417.2(a).



Section I, Page 26                                              USDA/OIG-A/24001-3-At
                not been identified or analyzed, and a determination made on
                the need for additional CCP's at the plant. For example, we
                found product lines in plants F and L and processing steps in
                Plants D and H that were omitted from the hazard analyses.
                The manufacturing processes for the omitted products and
                steps had not been evaluated to determine if food safety
                hazards existed and if additional CCP's were needed.

           B.   Food Safety Hazards were not Adequately Described

                The description of listed hazards in the hazard analyses of one
                or more HACCP plans reviewed at plant L was not sufficient to
                allow an evaluation of the actual risk associated with the
                process and appropriateness of the designated preventive
                measure. The hazard analysis did not describe the hazards in
                enough detail to determine the actual nature of the hazard.
                Scalding agents were listed as a chemical hazard but it was not
                clear if the agents were toxic, carcinogenic, or caused allergic
                reactions (either mild or life threatening). The appropriateness
                of assigned preventive measures could vary depending on the
                actual nature of the chemical hazard.

           C.   Analyses Were Not Documented to Show All Likely Hazards
                Were Considered

                The hazard analyses at plant D did not document any physical
                or chemical hazards as a possibility even though other plants
                had considered these types of hazards. The only hazard shown
                in the hazard analyses for the eight HACCP plans was
                “microbial.” The hazard analyses at the other plants visited
                showed that all three types of hazards were considered but
                physical or chemical hazards were usually shown as not
                applicable or not likely. The hazard analyses appeared to
                concentrate primarily on biological hazards.

           Improvements are needed in plants’ hazard analyses. All product
           lines and processing steps need to be evaluated to determine if food
           safety hazards exist. Hazard analyses also need to be described in
           sufficient detail to ensure that evaluation of actual risk and
           preventative measures assigned by the plants were appropriate. In
           addition, more emphasis is needed on plants’ evaluation of physical
           and chemical hazards within the processing environment.




USDA/OIG-A/24001-3-At                                        Section I, Page 27
                                            Implement a system of oversight to
  RECOMMENDATION NO. 3                      ensure that the hazard analyses include
                                            all food safety hazards that are
                                            reasonably likely to occur:

                      a. Work with plant management to review the hazard analyses
                         for completeness and accuracy,

                      b. ensure that scientific and technical data have been provided
                         to support conclusions that processes do not pose any food
                         safety hazards that are reasonably likely to occur.

                     c.   provide the district office with clear authority to enforce the
                          requirement to address identifiable hazards, as required by
                          the HACCP regulations.

             Agency Response

             In its May 18, 2000, response to the draft report, FSIS stated:

                     FSIS agrees that hazard analyses must be conducted to
                     determine the food safety hazards reasonably likely to occur
                     in the production process (9 CFR 417.2, NACMCF Hazard
                     Analysis and Critical Control Point Principles and Application
                     Guidelines). FSIS disagrees with recommendation (a),
                     “work with plant management to review the hazard analyses
                     for completeness and accuracy,” for reasons cited in earlier
                     FSIS responses regarding the role of industry in taking
                     responsibility for HACCP plans.            Having inspection
                     personnel review plants’ hazard analyses for completeness
                     and accuracy are tantamount to “approving” the plant’s
                     hazard analyses.          However, FSIS agrees with
                     recommendations (b) and (c). Through verification and
                     recordkeeping activities, FSIS inspection personnel are
                     required to ensure that scientific and technical data are
                     provided to support conclusions in the HACCP plan. If
                     inspection personnel have questions about the adequacy of
                     this data, they can either contact the TSC or request the
                     plant to provide clarification.         If, as inferred by
                     recommendation (c), the establishment has not addressed
                     hazards that are reasonable likely to occur, inspection
                     personnel have enforcement protocols to apply, 9 CFR
                     417.6.



Section I, Page 28                                            USDA/OIG-A/24001-3-At
                   OIG Position

                   FSIS inspectors are already required to review initial HACCP plans
                   and plans after reassessments. As part of this review, inspectors are
                   required to review this plant’s hazard analyses. We found that in many
                   cases, these reviews were not sufficient to detect food safety hazards
                   that were not addressed in the HACCP plans. Without more intensive
                   reviews by FSIS inspectors, plants operating with these HACCP
                   systems may not produce safe and wholesome meat and poultry.
                   Therefore, to reach management decision, FSIS should provide
                   specific plans (along with associated timeframes) that will ensure
                   needed improvements in plants’ hazard analyses.

                                          Flowcharts had not been prepared for all
           FINDING NO. 4                  processes in the plants, and those that
                                          had been prepared did not always fully
     FLOWCHARTS DID NOT SHOW              document the production process. In
     ALL PRODUCTION PROCESSES             addition, some products produced by the
                                          plants were omitted from the HACCP
                                          plans and production flowcharts. Plants
              are to use the flowcharts to identify potential food safety ha zards at
              each process. Consequently, FSIS' ability to ensure food safety was
              impaired because FSIS relies on the flowcharts to identify processes
              and points to monitor.

                   Federal regulations 13 state that a flowchart describing the steps of
                   each process in the establishment shall be prepared and the
                   intended use or consumer of the finished product shall be identified.
                   Although these regulations support the need for accurate flowcharts,
                   FSIS has not exercised its authority to demand them. The IIC at
                   each plant reviews the HACCP plan and either rejects it as not
                   complying with regulations or accepts it as written, but lacks the
                   authority to require changes in it.

                   We reviewed 57 of 107 HACCP plans at the 15 plants and evaluated
                   the production flowcharts included in the plans with the assistance of
                   review officers from FSIS’ technical service center. We identified
                   defects in the production flowcharts for one or more of the plans
                   reviewed at 8 of the 15 plants. Products, production processes, or
                   individual processing steps were omitted from the flowcharts or the
                   processing flow was not accurately documented. For example, at
                   plant F, the production of offal products (i.e., liver, tripe, tongue) was
                   not shown on the flowchart and the chart did not show the

13
     9 CFR § 417.2(a)(2).

USDA/OIG-A/24001-3-At                                                    Section I, Page 29
             processing flow for the head boning operation. At plant L, the
             flowchart did not document the production of beef bacon. Other
             noted defects in flowcharts were:

                •    Steps related to receiving ingredients (including meat
                     products from other plants) and other materials used in the
                     production process were omitted (plants I, J, and M).

                •    The processing flow (including disposition or transfer of
                     products to other processes) was unclear or not documented
                     (plants D, I, J, and L).

                •    Significant steps in the processing, such as trimming
                     carcasses and reworking product, were omitted (Plants D, F,
                     H, I, and L).

                •    The location of a CCP or testing for a CCP was not accurately
                     shown (Plants G and I).

             Plant officials generally agreed to either revise the charts as needed
             or further study the issue. In two cases, they questioned our
             interpretation of how the flowcharts should be documented.

                                     Implement a system of oversight, to
  RECOMMENDATION NO. 4               include management reviews and/or
                                     independent       reviews      requiring
                                     establishments to correct flowcharts to
        reflect the establishment’s actual operations.

             Agency Response

             In its May 18, 2000, response to the draft report, FSIS stated: “FSIS
             believes that its role is one of verification that the HACCP plan is being
             implemented as defined by the establishment, and that the scientific
             basis and rationale for the HACCP plan is credible. FSIS will
             challenge the adequacy of HACCP plans.”

             OIG Position

             FSIS’ response does not address this recommendation. FSIS should
             provide specific details on how the inspectors’ review of HACCP plans
             will better detect plants’ incomplete flowcharts.




Section I, Page 30                                          USDA/OIG-A/24001-3-At
                 FSIS NEEDS TO PLACE GREATER EMPHASIS ON
CHAPTER 2
                 PATHOGEN TESTING

           One of the keys to the success of the HACCP system is the
           technological advance in pathogen testing. Laboratory tests are
           capable of identifying a host of microbiological agents whose
           presence in meat and poultry had thus far been undetermined. As part
           of our FSIS initiative, we also performed an audit to assess the
           adequacy of FSIS lab testing programs. Under HACCP, FSIS meat
           and poultry producing establishments maintain their own testing
           programs. Slaughter plants are required to test for generic E. coli.
           FSIS is required to test for Salmonella. In addition, FSIS’ directed
           testing program (not part of HACCP) tests for other harmful
           pathogens, such as E. coli 0157:H7 and Listeria monocytogenes (LM).
           Plants may voluntarily test for specific pathogens and other generic
           pathogens, but they are not required to do so.

           The seriousness of pathogens in meat is illustrated by a case that
           occurred in late 1998, where 101 people became ill apparently from
           eating meats contaminated with LM. Of those who became ill, 15 died
           and 6 suffered a miscarriage or stillbirth. The plant that produced the
           meats had a history of positive tests for generic Listeria in the
           environment and on its product. However, FSIS inspectors had no
           knowledge of the presence of these bacteria because notification was
           not required. FSIS' nationwide sampling programs found that over 40
           percent of raw ground chicken and 5.7 percent of sliced ham and
           luncheon meats tested positive for LM. Overall, 3 percent of cooked
           product tested positive.

           During our review, we found that FSIS field employees needed the
           authority to require plants to expand their pathogen testing and to
           notify FSIS of positive test results. Under current procedures, plants
           that practice voluntary pathogen testing need not test for specific
           strands of E. coli, even after they detect the presence of generic E.
           coli, and they need not notify FSIS, even if their generic test results
           are positive (see Finding No. 9). Plants also need not test for any
           form of Listeria or any emerging pathogens, such as Campylobacter
           that causes an estimated 99 deaths and 1.9 million illnesses each
           year.

           FSIS also needs to increase its oversight of plant testing protocols and
           improve its security of laboratory samples gathered. Generally, FSIS
           inspectors do not review the protocols to ensure they are based on

USDA/OIG-A/24001-3-At                                          Section I, Page 31
                 scientific standards and do not secure FSIS samples against
                 tampering. These conditions reduce assurances that test results
                 accurately reflect conditions at the plants. In a recent Office of
                 Inspector General (OIG) Investigation case in Florida, officials at one
                 plant opened FSIS’ samples before they were shipped and sanitized
                 the meat to eliminate microbial contamination.

                 FSIS’ testing program also does not always ensure that production
                 was subjected to testing. We found that rigid timeframes and poor
                 communication have allowed some products to enter the market
                 without being subjected to testing for pathogens. Tests on seasonal
                 products did not always fall within FSIS’ testing timeframes in the
                 directed testing program, and a Salmonella series test was stopped
                 prior to completion.

                                      Pathogen reduction is achieved when
       FINDING NO. 5                  HACCP performance standards are
                                      established and met.          FSIS did not
EXPANDED PATHOGEN TESTING             establish  standards     that required plant
WOULD INCREASE FOOD SAFETY HACCP plans to include pathogen testing
                                      of the plant environment, product contact
                                      surfaces, or ready-to-eat products. FSIS
          had limited testing to Salmonella and generic E. coli. and did not
          require plants to test for other known pathogens, such as E. coli.
          0157:H7, and LM. Although FSIS recently required plants to reassess
          their HACCP plans for LM, no documentation of the review was
          required and instructions did not specifically require plants to establish
          a CCP to test for the pathogen14. One of the keys to the success of
          HACCP is microbiological testing, and sound management practices
          dictate that known harmful pathogens should be monitored through an
          effective testing program.

                 Industry officials purchasing meats from HACCP plants informed us
                 that they routinely require additional microbiological tests for
                 pathogens as part of the purchase contracts. These tests are for
                 pathogens, such as E. coli 0157:H7 and LM, that are not required by
                 FSIS, but are needed to meet the individual company food safety
                 standards.




14
  Federal Register/Vol. 64, No. 101 (May 26, 1999), Pages 28351-28353; Listeria Guidelines for Industry (May
1999); FSIS Notice 17-99 (June 17, 1999); and FSIS Notice 23-99 (August 3, 1999).




Section I, Page 32                                                         USDA/OIG-A/24001-3-At
                  Under HACCP, slaughter plants are only required to test for generic E.
                  coli, which aids in evaluating the effectiveness of their sanitation
                  procedures and the possible presence of pathogens. FSIS performs a
                  testing series to ensure plants comply with established Salmonella
                  standards. Under its directed testing program, FSIS also tests for
                  specific pathogens, such as E. coli 0157:H7, and LM on a nationwide
                  basis. (A test revealing the presence of a specific pathogen means
                  that the product is regarded as adulterated, while a test revealing
                  nonspecific microbes does not.) However, although FSIS tests are
                  more meaningful than plant tests concerning the wholesomeness of
                  the product, the number of directed tests FSIS obtains from an
                  individual plant is generally not sufficient to assess reliability on an
                  individual plant basis.

                  In May 1999, after the tragedy referred to earlier in which 15 people
                  died after consuming LM-tainted hot dogs, FSIS advised
                  manufacturers of ready-to-eat meat products that establishments must
                  reassess their HACCP plans. FSIS took the position that LM
                  contamination should be considered to be reasonably likely to occur in
                  the production of products, especially if an establishment has
                  produced products adulterated with LM or is producing ready-to-eat
                  products susceptible to such contamination in an environment that is
                  not known to be free of this pathogen.

                  At the time of our field visits, none of the six plants producing ready-to-
                  eat products had included plant environmental or final product testing
                  as a CCP. Generally, plants had established microbiological testing
                  programs outside of HACCP, but they did not test for specific
                  pathogens, which could result in the product being considered
                  adulterated. For example, although plant H did not mention such
                  testing in its HACCP plan, it tested the environment and final product,
                  but only for the generic Listeria species. Plant C's HACCP plan
                  justified not establishing a CCP by claiming that testing was done of
                  both product and environment. However, our review showed that only
                  environmental testing was performed.

                  As reported in Finding No. 9, plants did not inform FSIS when they
                  developed a history of frequent positive generic tests on contact
                  surfaces and products. FSIS' industry guidance 15 suggests that if
                  positive samples are found on product contact surfaces for samples
                  indicated in the HACCP plan for generic Listeria, the next lot of
                  product produced from the line should be sampled and tested for LM.
                  (If a sampled lot already in commerce test positive, it will be subject to
                  recall.) This guidance further suggests that an end-product sampling
 15
      Listeria Guidance for Industry (May 1999), FSIS Internet.

USDA/OIG-A/24001-3-At                                                   Section I, Page 33
                  program for ready-to-eat products may serve as verification of the
                  HACCP plan.

                  To encourage plants to take greater responsibility for the
                  wholesomeness of their product, FSIS developed procedures that
                  may in fact have limited its ability to identify products containing
                  pathogens 16. Under these procedures, FSIS inspection personnel
                  generally may not collect raw ground beef samples to be tested for E.
                  coli 0157:H7 at plants that have pathogen reduction interventions on
                  beef carcasses in place. Plants under this program are not required to
                  notify FSIS of positive test results. In lieu of pulling a sample for FSIS
                  testing when a request is received from the National Office’s directed
                  sampling program, inspectors are limited to reviewing plant records for
                  positive test results within the last 6 months.

                  Based on data from FSIS and Centers for Disease Control (CDC),
                  there are other known pathogens that pose danger to consumers.
                  Foodborne disease may cause an estimated 76 million illnesses,
                  325,000 hospitalizations, and 5,000 deaths in the U.S. each year
                  according to the CDC. CDC reported that Campylobacter has been
                  the number one pathogen causing foodborne illnesses, and
                  Salmonella and LM cause the most foodborne deaths. In addition,
                  significant levels of both Campylobacter and LM were reported for
                  some products in baseline studies conducted by FSIS prior to the
                  implementation of HACCP.

                  FSIS' testing ideology appears to be more reactive than proactive to
                  testing for emerging foodborne pathogens. An FSIS National Office
                  official told us that while there is a zero tolerance standard for LM on
                  ready-to-eat product, there is no consensus on standards for Listeria
                  on raw products including ground products. The regulations provide
                  specific authority to impose standards on Salmonella. FSIS does not
                  have standards for testing other pathogens in products or on
                  environmental and contact surfaces. The FSIS official believed it
                  was not FSIS' role to require plants to test ready-to-eat product for
                  pathogens such as Listeria and Campylobacter. He believed that
                  FSIS should focus the plant's attention on sanitation problems, and
                  that it should be left to the plant to decide how to ensure it produces
                  a safe and wholesome product.




16
     FSIS Directive 10,010.1 (February 1, 1998).




Section I, Page 34                                               USDA/OIG-A/24001-3-At
            ARS supports FSIS in implementing HACCP by providing improved
            sampling protocols, user friendly pathogen identification methodology,
            technology to provide microbiological controls, and information to base
            standards for processing specific products. ARS research provides
            for the development of methods to ensure food safety through
            microbial sampling technologies to more accurately estimate the true
            burden of food products covered by HACCP.

            We believe that FSIS is not fully addressing the danger posed by
            known and other new or emerging foodborne pathogens. FSIS may
            be placing undue reliance on plants that may be unable or unwilling to
            take necessary action in the face of repeated tests showing the
            presence of potentially harmful microbes.

            For example, we issued a management alert for plant H because the
            plant did not notify FSIS inspectors when Listeria was found in their
            voluntary environmental and product pathogen testing programs.
            Inspectors became aware of the problem by questioning plant officials
            why some inventory had remained in the plant for an extended period.
            An employee informally told the inspectors of the Listeria problem.
            The product in question was subsequently destroyed after we visited
            the plant.

            The Grant of Inspection (Form 5200-1) is the only agreement between
            the plant’s management and FSIS. The Grant of Inspection is a one-
            page form that does not spell out important plant responsibilities, such
            as responsibilities for maintaining sanitation records and FSIS
            notification when a plant’s pathogen testing identifies adverse
            conditions. Also, the Grant of Inspection does not address FSIS
            authority to gain access to all plant pathogen test records.

            We concluded that consumer safety would be improved if plants using
            voluntary programs were required to immediately report positive test
            results and if provisions were made for routine verification testing by
            FSIS.

                                       Develop and implement procedures that
  RECOMMENDATION NO. 5                 provide FSIS employees at the
                                       appropriate level with the authority to
                                       require HACCP plans to include pathogen
        testing of product environment, contact surfaces, and final products,
        particularly if a plant has a history of positive test results for microbes
        such as Listeria.




USDA/OIG-A/24001-3-At                                           Section I, Page 35
             Agency Response

             In its May 18, 2000, response to the draft report, FSIS stated that:

                     FSIS has clear authority to enforce the requirements of the
                     HACCP regulations. HACCP is an effective preventive
                     system and a properly designed system includes
                     microbiological validation and verification by the
                     establishment. Moreover, FSIS believes that microbiological
                     verification is an appropriate responsibility of FSIS. FSIS is
                     pursuing a number of microbiological-based performance
                     standards which would further ensure that the
                     establishments are adequately addressing food safety.
                     FSIS is especially concerned about the presence of
                     pathogens on ready-to-eat products and in the production
                     environment, and FSIS is now evaluating the response by
                     the establishments to last year’s Listeria monocytogenes
                     reassessment (attachment 5). FSIS held a public meeting
                     on Listeria monocytogenes on May 15, 2000, at which the
                     agency addressed current thinking regarding further action
                     associated with this pathogen. By December 2000, FSIS
                     expects to issue a proposed regulation addressing ready-to-
                     eat meat and poultry. This proposed rule is expected to
                     contain a performance standard specifically addressing this
                     pathogen.

                     FSIS agrees that its role is to verify that the HACCP plan is
                     being implemented as defined by the establishment, and
                     that the scientific basis and rationale for the HACCP plan is
                     credible. FSIS will challenge the adequacy of HACCP plans.

             OIG Position

             To achieve a management decision for the recommendation, we need
             specific details on proposed performance standards over the
             production environment, and when the standards will be implemented.

                                            Provide clear authority in the Grant of
  RECOMMENDATION NO. 6                      Inspection contract for FSIS oversight of
                                            all plant pathogen testing.




Section I, Page 36                                           USDA/OIG-A/24001-3-At
           Agency Response

           In its May 18, 2000, response to the draft report, FSIS stated: “FSIS
           has been investigating the regulatory requirement associated with the
           Grant of Inspection and, if feasible, will pursue options to amend the
           Grant of Inspection to make clear the authority of FSIS to oversee
           plant pathogen testing. A conclusion will be reached by June 2001.”

           OIG Position

           To achieve a management decision for this recommendation, we need
           to know FSIS’ detailed plans on how the recommendation will be
           implemented. Departmental Regulation No. 1720-1 requires that
           management decisions be reached within 6 months.

                                        Develop testing programs in coordination
  RECOMMENDATION NO. 7                  with the ARS for other pathogens that
                                        impact food safety.

           Agency Response

           In its May 18, 2000, response to the draft report, FSIS stated:

                FSIS continues to work closely with ARS in a variety of food
                safety research and development areas. However, ARS
                does not develop “testing programs” (which is the role of
                FSIS) but ARS does play a significant and critical role in the
                design and development of methods used by FSIS’
                laboratories for analyses of regulatory samples. A recent
                example of the collaborative work between FSIS and ARS is
                the design and development of an improved analytical
                method for E. coli O157:H7. ARS performed the basic
                research and development for the new method and then
                collaborated with one of FSIS’ laboratories to adapt the
                method for analyses of regulatory samples. This joint effort
                resulted in FSIS’ use of an improved, more sensitive testing
                method, allowing increased recovery of this significant
                pathogen to better protect public health. In September
                1999, this improved immunomagnetic bead method was
                implemented in all three FSIS laboratories.

                Additional projects are underway including a project
                involving Listeria monocytogenes and a project on handling/
                transportation and chilling of meat and poultry. FSIS is also
                developing proposals for new research projects to develop

USDA/OIG-A/24001-3-At                                           Section I, Page 37
                          detection methods for foodborne viruses, the parasite
                          Toxoplasma gondii and the foodborne pathogenic
                          bacterium, Yersinia enterocolitica.

                   OIG Position

                   Since collaborative efforts are underway with ARS, we accept the
                   management decision for this recommendation.

                                          Security over samples sent by FSIS field
           FINDING NO. 6                  offices to USDA labs needs improvement.
                                          Current FSIS instructions do not provide
       FSIS NEEDS TO IMPROVE              guidance for the security of test samples
     SECURITY OVER LABORATORY             after packaging by inspectors until the
              SAMPLES                     shipping agent collects the package. In
                                          addition, instructions do not address
                                          security for samples stored in FSIS
              refrigerators. These test results are used by FSIS to assess the
              effectiveness of a plant’s HACCP programs. Consequently, there is
              reduced assurance that FSIS’ testing program reflects the actual
              conditions in the plants.

                   Instructions to inspectors cover selecting, preparing, and packaging
                   samples for shipment to USDA labs for analysis; however, the
                   instructions do not address sample security17. FSIS samples are
                   evidence of the sanitation conditions in a plant and must be sufficient,
                   competent, and relevant. (In the scientific community this is commonly
                   referred to as quantitative and qualitative.)

                   Our review at 15 FSIS field offices found that inspectors were not
                   required to package lab samples in tamper resistant shipping
                   containers. The containers used had Velcro seals so that FSIS could
                   reuse the boxes. We found that inspectors at nine field offices left their
                   sample containers where plant officials had access to the samples
                   prior to pickup by the shipping agent. Because the containers could be
                   opened without detection, there is no assurance that the samples were
                   not altered by plant officials.

                   For example in 1998, an OIG criminal investigation found that plant
                   officials in Florida had tampered with FSIS samples left for the shipping
                   agent. This was done to disguise intentional product alteration of
                   excessive fat and water in the products. Also, the plant officials added

17
     FSIS Directive 10210.1.




Section I, Page 38                                               USDA/OIG-A/24001-3-At
            sanitizer to meat samples to eliminate microbial contamination. After
            the tampering was discovered, several million pounds of meat products
            suspected of being contaminated with E. coli were recalled and
            destroyed.

            Our review also found that the FSIS refrigerators at two plants, used to
            freeze and store FSIS samples, were not locked while inspectors were
            not in the room. The IIC at plant C had a lock installed on the
            refrigerator during our visit. (Plant personnel had access to the
            refrigerators when the inspection personnel were temporarily gone.)
            Also, carcasses selected for sampling were accessible to plant
            personnel while hanging in the freezer at one slaughter plant.
            Consequently, samples were not secured prior to shipment to the labs
            for analysis.

            FSIS relies on their sampling program to monitor and assess plant
            conditions to ensure that safe and wholesome products reach
            consumers. However, the integrity of the sampling program was
            compromised because inspectors did not maintain custody of samples
            prior to their receipt by the shipping agent.

                                      Improve controls by issuing instructions
  RECOMMENDATION NO. 8                for securing FSIS test samples until the
                                      samples are in the possession of the
                                      shipping agent and review security to
        ensure that instructions are being followed.

            Agency Response

            In its May 18, 2000, response to the draft report, FSIS stated:

                 FSIS has undertaken an effort to improve sample security.
                 Currently, FSIS Directive 7355.1 outlines procedures for
                 sample security.      The FSIS laboratories are revising
                 Directive 7355.1 to reflect a more fail-safe procedure, which
                 is estimated to be completed by September 30, 2000. This
                 will require developing new forms, educating laboratory
                 personnel, and training inspectors.

            OIG Position

            To achieve a management decision for this recommendation, we need
            the revised FSIS Directive 7355.1 showing the new requirements for
            sample security.



USDA/OIG-A/24001-3-At                                            Section I, Page 39
                                             FSIS needs to improve its monitoring of
            FINDING NO. 7                    the Salmonella testing series and ensure
                                             that testing results are communicated to
          CONTROLS OVER FSIS                 FSIS field inspectors. FSIS Technical
        PATHOGEN TESTING NEED                Service Center officials were not always
             IMPROVEMENT                     aware that field inspectors had stopped
                                             the Salmonella testing series before
                                             completion and that other required tests
               were not being performed. In addition, field office inspectors did not
               always receive test results for samples submitted. Consequently, FSIS
               inspectors did not know if the pathogen-testing program had revealed
               indications of problems in the plants which required appropriate
               monitoring actions to ensure that adverse conditions were eliminated.

                   FSIS directives18 provide for a directed sampling program and a
                   Salmonella testing series for establishments receiving inspection
                   services. FSIS depends on its testing programs to assess a plant’s
                   compliance with established standards and to identify harmful
                   pathogens. The FSIS technical service center is responsible for
                   monitoring testing programs and providing inspectors testing results.
                   FSIS' testing programs were designed to provide inspectors with a tool
                   for monitoring to ensure that establishments complied with established
                   standards.

                   A.     Incomplete Salmonella Testing Series

                          At 2 of the 15 plants we visited, the Salmonella testing series
                          were incomplete. FSIS field office inspectors thought the tests
                          were completed when in fact several tests remained in the series.
                          Inspectors stopped submitting samples when they ran out of
                          testing materials provided instead of receiving notification from
                          the technical service center to stop testing. The IIC stated that
                          they were unaware the testing series was incomplete because
                          test results were not routinely provided to the field office. In
                          addition, the FSIS technical service center official responsible for
                          monitoring the testing series was unaware that the inspectors had
                          stopped testing and assumed tests were ongoing because he
                          had not notified the IIC to stop testing. Salmonella testing was
                          resumed after we brought this to the district’s attention. Without
                          our intervention, FSIS had no assurance that the plants complied
                          with established Salmonella standards.


18
     FSIS Directives 10,010 and 10,240.




Section I, Page 40                                                 USDA/OIG-A/24001-3-At
                At one plant, we found that the IIC did not obtain samples for
                each day’s production during the Salmonella testing series. The
                IIC excluded Saturday production because the shipping agent did
                not provide weekend service. The IIC was unaware that a valid
                sample could be taken if the selected carcass was held until the
                following Monday for testing. As a result, not all production was
                subject to random testing during the Salmonella series.

                We also found that FSIS had not initiated a Salmonella testing
                series in a timely manner when plants entered the HACCP
                program. We found that FSIS had not begun its Salmonella
                testing series for two plants until 6 months had passed after the
                first plant implemented HACCP and until 8 months had passed
                after the second plant had entered the program.             FSIS’
                Salmonella testing series does not specify when Salmonella
                testing should begin after a plant enters the HACCP program.
                Without testing, FSIS has no assurance that the plants' pathogen
                reduction programs were effective.

           B.   Production Not Included in the Directed Testing Program

                FSIS' directed testing program did not ensure regular testing for
                establishments. The IIC at plant D had not been directed to
                sample for Listeria or Salmonella in over 2 years because the
                sampling frame form (list of products subject to the directed
                testing program) was incorrectly completed. The IIC did not
                believe that the sampling frame form contained any of the
                products produced at the plant, even though the sampling frame
                form included processed meats that were produced at the
                establishment. Without directed testing of the establishment’s
                products, there is no assurance that products had not been
                contaminated or adulterated.

                We also found that the directed sampling requests were for
                specific timeframes and were not linked to the times that products
                were produced. At plant E, the IIC did not sample raw pork
                sausages that were only produced on selected Fridays. Thus,
                seasonal or limited production-run products would not be tested
                unless samples were requested during production.             FSIS'
                sampling frame form does not allow inspectors to identify
                seasonal products or those products with infrequent production
                schedules. Thus, there is no assurance that all products will be
                subject to testing under FSIS directed testing program.




USDA/OIG-A/24001-3-At                                         Section I, Page 41
                     We believe that inspectors lose a valuable tool to assess a plant’s
                     operations when testing series are incomplete, when products are
                     not included in the directed testing program, and when test results
                     are not communicated. FSIS field office inspectors also lose the
                     opportunity to increase monitoring of identified problem areas.
                     Failure to perform direct testing and complete Salmonella testing
                     series increases the possibility of contaminated or adulterated
                     product entering the market place.

                                              Implement management controls, which
  RECOMMENDATION NO. 9                        would include:


                      a. timely providing field office inspectors all microbe testing
                         results,

                      b. instructions to FSIS field offices to continue Salmonella
                         testing each production day, until notified by the technical
                         service center to stop,

                      c. procedures to notify the district office if a field office stops
                         submitting Salmonella samples prior to the completion of a
                         testing series, and

                      d. procedures to ensure that seasonal and products with
                         irregular production schedules are tested in the direct testing
                         program.
             .
             Agency Response

             In its May 18, 2000, response to the draft report, FSIS stated:

                     With regard to recommendation 9 (a) FSIS currently uses
                     the Biological Information Transfer E-mail System as
                     outlined in Notice 25-99 (attachment 7) to provide timely
                     notification to field offices of testing results. The laboratories
                     send electronic messages to District Offices informing them
                     of laboratory results (positive and negative).               They
                     immediately contact District Offices to notify them of
                     potential and confirmed positive results. They also send e-
                     mail laboratory results, with the exception of Salmonella
                     results, to plants that have provided e-mail addresses. FSIS
                     shares results of Salmonella testing only when the sample
                     set is complete. In addition, FSIS is also initiating a system



Section I, Page 42                                              USDA/OIG-A/24001-3-At
               that will allow Circuit Supervisors and in-plant inspectors to
               obtain test results by accessing on-line electronic folders.

               In response to recommendation 9 (b), (c) and (d), current
               procedures require FSIS in-plant personnel to continue
               Salmonella testing each production day until notified by the
               TSC to stop. FSIS acknowledges, that in some cases,
               inspectors did not understand that some of the samples they
               had submitted to the laboratory were discarded; therefore,
               they stopped testing prematurely. FSIS has instituted a non-
               responders report (attachment 8) that is sent from
               Headquarters monthly using the Pathogen Reduction
               Enforcement Program to the District Office. The report lists
               by district all plants that have not submitted a Salmonella
               sample or a reason for not submitting the sample in the last
               30 days. This allows the District Office to investigate and
               correct the problem. Also, some inspectors reported that
               they exhausted their supply of sample forms, and did not
               know how to request additional materials. Information about
               how to request additional materials was included in HACCP
               training and in FSIS Directive 10,230.5 (attachment 9).
               There are also experts at the TSC to answer inspector
               questions. Finally, if the plant has entered the third
               Salmonella sample set, and they fail the sampling is
               discontinued and inspectors follow instructions in FSIS
               Directive 10,011.1 (attachment 10).

               FSIS expects to issue a Notice to District Managers and
               Circuit Supervisors related to Salmonella performance
               standard testing status reports. The reports relate to the
               Pathogen Reduction Enforcement Program (PREP), an
               automated scheduling system to be used in the
               management of Salmonella performance standard testing.
               The PREP system will assist in the day-to-day scheduling,
               tracking, and reporting of Salmonella sample sets. The
               Notice is expected to be finalized by August 2000.

           OIG Position

           To achieve a management decision for this recommendation, we
           need specific details along with completion timeframes, of the
           system being initiated for inspectors to access test results in
           electronic folders. FSIS also need to address part (d) of the
           recommendation regarding the testing of seasonal products in the
           directed sampling program.

USDA/OIG-A/24001-3-At                                          Section I, Page 43
                                           FSIS inspectors did not review plant
           FINDING NO. 8                   microbial testing plans for required
                                           generic E. coli testing to ensure the
     FSIS DOES NOT VERIFY PLANT            sampling protocols were based on
      SAMPLING PROTOCOLS FOR               scientific standards and that the microbial
     REQUIRED MICROBIAL TESTING            testing was reliable. Current procedures
                                           do not require FSIS approval of plant
                                           microbial testing protocols. In addition,
              inspectors concentrate their review efforts on plant generic E. coli
              testing results when monitoring tasks are assigned and do not review
              the testing protocol. As a result, there was reduced assurance that
              required procedures designed to provide an indication of overall plant
              sanitary conditions accurately reflected conditions in the plant and
              identified cases where corrective action was needed.

                   Regulations require that pork and beef slaughter plants regularly test
                   for generic E. coli (Escherichia coli-Biotype 1) and that the plants have
                   written procedures for specimen collection19. The written procedures
                   must identify employees designated to collect samples, the location(s)
                   from which the samples are taken, how sampling randomness is
                   achieved, and how sample integrity is maintained. The regulations
                   further require that the procedures and test results be available for
                   FSIS review. (Note: FSIS officials do not have access to test results
                   plants perform that are not required by regulations. See Finding
                   No. 9.) If a plant has more positive E. coli test results than allowed in
                   the regulations, FSIS considers the failure to meet the standard as an
                   indication the plant may not be maintaining process controls sufficient
                   to prevent fecal contamination and may take further action to ensure
                   the plant is complying with all provisions of the law.

                   FSIS assigns inspectors daily tasks to monitor the sanitary conditions
                   of a plant. These tasks, in most cases, are comprised of several steps
                   and/or areas to be reviewed. Inspectors are routinely assigned an E.
                   coli testing review, task 05A01. This task requires an inspector to
                   ensure that plants have (1) documented a written sampling protocol,
                   (2) collected the required samples, and (3) recorded the test results
                   on a control chart. FSIS inspectors informed us that when this task
                   is assigned, they only review the last 13 tests for a failure and ensure
                   that the plant implemented an appropriate corrective action.

                   We visited seven pork or beef slaughter plants and found the following
                   problems with the sampling protocols and plant testing procedures at
                   four of the plants.
19
     9 CFR § 310.25 Contamination with microorganisms; pathogen reduction performance standards.


Section I, Page 44                                                        USDA/OIG-A/24001-3-At
              •    Plant I was not following the written sampling procedures in
                   that samples were not taken during every hour of production.

              •    Plant A had not developed any written sampling protocols for
                   generic E. coli.

              •    The written protocols at Plants B, I, and K did not include all
                   required information, such as location where samples were
                   taken or how randomness was achieved.

           Plant officials attributed the problems noted to a misunderstanding of
           the requirements in the regulations or to inaccurate documentation of
           the procedures followed. FSIS inspectors stated that they only
           reviewed the generic E. coli testing results and did not approve the
           plants’ microbial testing protocols.

           We concluded that management controls could be improved if FSIS
           required inspectors to review and approve a plant pathogen sampling
           protocol for all required testing.

                                        Implement procedures that require
 RECOMMENDATION NO. 10                  inspectors to review and approve plant's
                                        sampling protocols for generic E. coli
                                        testing to ensure they are complete and
           being followed.

           Agency Response

           In its May 18, 2000, response to the draft report, FSIS stated:

                  FSIS agrees that improvements can be made regarding the
                  generic E. coli testing programs operated by the
                  establishments and is planning a number of activities to
                  assess the adequacy of the establishment’s procedures as
                  required by 9 CFR 310.24 and 381.94. During FY 2001
                  FSIS expects to begin a more complete review of HACCP
                  implementation, which may include instructions, related to
                  generic E. coli. FSIS expects to issue updated instructions
                  before the second quarter of FY 2001.

           OIG Position

           To achieve a management decision for this recommendation, we need
           a description of how the recommendation will be implemented and a
           timeframe for implementation.

USDA/OIG-A/24001-3-At                                           Section I, Page 45
Section I, Page 46   USDA/OIG-A/24001-3-At
                 FSIS NEEDS TO DEFINE ITS OVERSIGHT ROLE IN
CHAPTER 3        THE HACCP SYSTEM AND HOLD PLANTS
                 ACCOUNTABLE FOR NONCOMPLIANCE

           As has been noted previously in this report, FSIS is uncertain of its
           authorities under the HACCP system and is reluctant to challenge
           plants that have taken measures to limit Federal oversight. We
           concluded that FSIS needed to define its oversight role in HACCP and
           ensure that industry understands the nature of its presence: to ensure
           that HACCP is operating as intended and that the expectations of
           HACCP—sanitary environment, identification and elimination of
           harmful bacteria on food products—are met.

           To fully define its oversight role, FSIS needs to grant IIC the authority
           to require changes to SSOP when those procedures are inadequate,
           and it needs to provide guidance to IIC’s when they confront plants
           with a history of repetitive critical deficiencies. Plant inspectors are
           currently unsure when to declare a plant’s corrective actions
           unworkable.      Some plants have received numerous notices of
           noncompliance for the same deficiency, but the inspectors had no
           understanding of what number, frequency, or nature of deficiencies
           would constitute a breakdown in the system.

           FSIS procedures need to be expanded to include requirements for
           returned products and microbial test reporting. (See also Finding
           No. 6.) Plant inspectors are not always aware when returned
           products enter the plants and do not know how the plants dispose of
           them. They are also unaware of the results of a plant’s internal
           microbial testing. FSIS instructions only require plants to provide
           FSIS the results of last 13 generic E. coli tests. When plants test for
           other pathogens, they are not obligated to inform FSIS of their test
           results and in fact do not allow FSIS access to those results. In one
           case, FSIS was unaware of a plant that had been testing for Listeria
           on its own initiative, and had positive tests for generic Listeria in its
           environment and LM in its products. FSIS did not discover the
           situation until it received an anonymous complaint.

           Overall, FSIS could improve its oversight by performing internal
           reviews to evaluate the effectiveness of HACCP, and by monitoring the
           tasks assigned to field personnel. FSIS has not performed an internal
           review in the six districts we visited, and its system of tracking task


USDA/OIG-A/24001-3-At                                           Section I, Page 47
                  assignments could be improved to better help management monitor
                  field level activities.

                                         The current FSIS procedures do not
        FINDING NO. 9                    require plants to provide internal microbial
                                         testing results to inspectors or require
FSIS NEEDS ACCESS TO PLANTS’             plant officials to notify inspectors when
   MICROBIAL TEST RESULTS                environmental      testing    reveals   the
                                         presence or likelihood of a harmful
                                         pathogen. FSIS officials informed us that
           plants are not required to provide any testing results unless such tests
           are included in the HACCP plan or unless the plant identified an
           adulterated product. During our review, plant officials denied OIG
           access to their optional pathogen testing program records even though
           such testing was included in their HACCP plan. The FSIS national
           office intervened and the records were provided. Plants have also
           refused FSIS inspectors’ access to records of any food safety tests
           not mentioned as a CCP in their HACCP plans or as a SSOP. In turn,
           field office personnel are not required to review plant testing results.
           As a result, FSIS is not aware of all food safety data generated by the
           plant or the overall food safety performance of the plant. It is also not
           aware of other historical non-HACCP foodborne hazards at the plant.

                  FSIS instructions 20 require establishments to maintain daily records
                  sufficient to document the implementation and monitoring of the
                  SSOP's and HACCP plan and any corrective actions taken. Although
                  records required by these instructions are to be maintained and made
                  available to FSIS upon request, FSIS' instructions do not require
                  establishments to give inspectors access to optional pathogen test
                  results and to products or environmental tests not specifically
                  identified in HACCP or SSOP documents.

                  FSIS issues the Grant of Inspection to all plants that apply contingent
                  on their agreement to conform to inspection regulations, and are in
                  compliance during an FSIS survey of the establishment. The Grant of
                  Inspection does not address FSIS authorities such as access to plant
                  records, nor does it address penalties for noncompliance. Once
                  attained, the Grant of Inspection is not required to be renewed and
                  remains in place unless FSIS takes enforcement action. In our prior
                  reports, we recommended that FSIS revise the Grant of Inspection to
                  read and function more like a contract by placing the responsibility on



20
     9 CFR § 416.16 and 417.2.



Section I, Page 48                                             USDA/OIG-A/24001-3-At
           plant management to comply with regulations and to ensure the
           quality of plant operations.

           None of the 15 plants reviewed had included microbial testing as a
           CCP, and only two plants cited microbial testing in their HACCP plans.
           We found that FSIS inspectors had only reviewed the plants’ required
           E. coli testing records and believed that they did not have the authority
           to review any other plant testing records. Plant officials, in some
           instances, denied both OIG and FSIS inspectors access to test results
           even though the testing was cited in the HACCP plan. For example,
           even though plant C’s HACCP plan cited microbial testing, corporate
           officials initially denied FSIS’ request to review the testing records.
           Inspector General auditors had to leave the plant without reviewing
           these records. Only after negations with FSIS national office
           personnel did the corporate officials provide access. Our subsequent
           review of the plant’s environmental testing records revealed the
           presence of LM in production facilities and equipment. Consumption
           of food contaminated with LM can cause listeriosis, a potentially fatal
           disease.

           During 1999, 20 of 142 (14 percent), of the corporate lab testing forms
           identified the presumptive positive presence of LM in 28 environmental
           samples, 15 of which were taken from rooms with ready-to-eat
           products. In addition, we determined that four rooms in the plant had
           tested positive for LM two or more times, as shown on the following
           table. Further, plant officials stated that they did not test ready-to-eat
           products for the presence of Listeria, even after this pathogen was
           detected in production rooms.

                      Table 4: Positive Listeria Tests At Plant C
                                        February Through June 1999

                                                             Number of Positive
                                    Sample Site                   Tests
                        Spiral Ham Cutting Floor                     4
                        Ready-to-eat cooler floor                    3
                        Hot Dog Casing peeler vacuum tube            2
                        Ready-to-eat Tree Drop Floor                 2
                        Other Ready-to-eat Rooms                     4
                        Other Areas in the Plant                     13
                                       Total                         28




USDA/OIG-A/24001-3-At                                                    Section I, Page 49
             The IIC was unaware of the presence of LM in the plant until after our
             review. Also, the IIC and other FSIS officials were unaware that they
             had the authority to require the plant to share its test results because
             the HACCP plan included pathogen testing procedures.
             Consequently, the IIC did not monitor the plant’s corrective actions
             taken or submit ready-to-eat product samples to USDA labs to ensure
             the products were pathogen free.

             Even when plants identified the presence of generic microbes that are
             strong indicators of the presence of pathogens, they did not always
             conduct further testing. We confirmed with a national private
             laboratory that a LM confirmation test cost about $2 more than a
             presumptive positive LM test used at plant C, or a total of $28 for an
             additional test. At plant H, we reviewed microbial testing records
             voluntarily provided to us. We found that the plant had a long history of
             test results that suggested the presence of the general Listeria
             species. Tests showed suspect positive results from samples taken
             from the floor, product contact surfaces, and, in two instances, cooked
             product (see table 7). According to plant management, they did not
             perform testing to specifically determine the presence of LM. FSIS'
             current procedures do not require plants to confirm the presence of
             LM. Without such confirmation, the plants are not required to advise
             FSIS of positive Listeria test results, or product potentially adulterated
             with LM.

               Table 5: Positive Listeria Tests At Plant H
                                          January through June 1999

                                Sample Site                   Number of       Total Number
                                                             Positive Tests      of Tests

                 Work Floor                                       79              174
                 Product Contact Surfaces - Equipment             20              286


             According to the IIC and other FSIS officials, FSIS did not have the
             authority to require the plant to share its test results if the testing was
             not specifically required by the regulations or included as in the
             HACCP plan. The IIC was not aware of the extent of suspect Listeria
             incidents and became aware of the presence of Listeria in the plant
             only after questioning plant employees as to why some finished
             product was held in the freezer for a number of days. He was then
             informally advised that the product was suspected of containing
             Listeria. The plant took action to dispose of the product after our visit.




Section I, Page 50                                               USDA/OIG-A/24001-3-At
           We issued management alerts for these two plants to FSIS. FSIS
           advised it had issued FSIS Notice 23-99, dated August 3, 1999, which
           required all plants to perform a LM reassessment and instructed
           inspectors to determine if the plants reassessed their HACCP plans.
           However, the notice did not require the plants to maintain written
           documentation to support their reassessments, or require enhanced
           pathogen testing when adverse conditions were identified. A HACCP
           plan was considered reassessed when plant officials signed and dated
           the plan after the issuance of the FSIS Notice 23-99.

           In 1998, a plant (not one of the 15 plants visited) produced LM-
           adulterated products that reached consumers and caused illnesses
           and deaths. The plant’s environmental pathogen testing program
           revealed the presence of Listeria from product contact surfaces on the
           retail frank line from July to November 1998, when the plant
           discontinued pathogen testing. Company officials did not notify FSIS
           that the plant’s environmental tests had detected Listeria on product
           contact surfaces or perform additional testing to confirm the presence
           of LM. After the CDC started an investigation, the company voluntarily
           recalled about 35 million pounds of meat. Had the IIC been informed
           of the plant’s environmental testing results, FSIS could have increased
           its monitoring efforts through unscheduled monitoring tasks to help the
           plant eliminate its Listeria problem.

           In 1999, at another plant (not one of the 15 plants visited), an
           anonymous copy of a presumptive positive Listeria test result was left
           in an IIC's mailbox. The IIC was unaware of a Listeria problem at the
           plant, and after consulting with the district office was instructed to
           perform directed testing of plant products for Listeria. FSIS' testing
           found the presence of LM in the plant's products. An investigation
           found that the plant had performed general Listeria testing for both
           environment and products as part of its sanitation program, even
           though this testing was not required by the Government. These tests
           demonstrated a history of generic Listeria in the plant, and in one
           instance the presence of LM in plant products. The IIC was not
           notified of the unwholesome product, even though such a notification
           was required. As a result, 4 to 5 million pounds of hot dogs had to be
           recalled because of this incident. If the IIC had access to the plant's
           optional testing records, FSIS could have worked with the plant to
           eliminate the Listeria problem before contaminated products reached
           the consumers.

           Our review also disclosed that plants are not compelled to report when
           required E. coli test results exceed Federal standards. Our review of
           E. coli testing records at 11 slaughter facilities found that 9 plants had


USDA/OIG-A/24001-3-At                                            Section I, Page 51
             at least one E. coli test failure in 1999. We found that FSIS inspectors
             had access to and reviewed the testing records for only the most
             recent 13 test results when an inspection task was assigned to review
             the documented corrective action. When inspectors are not informed
             immediately of E. coli failures, they cannot monitor the plant’s
             corrective actions in progress. Consequently, inspectors do not have
             any assurances that the corrective actions are in fact implemented.

             We concluded that, in order to improve the effectiveness of HACCP
             and FSIS monitoring of plant operations, inspectors need access to all
             plant records of pathogen testing and timely notification by plant
             management of all adverse testing results.

                                    Expand the language contained in the
 RECOMMENDATION NO. 11              Grant of Inspection agreement to include
                                    the requirements and responsibilities
                                    required of the plant under the HACCP
       program and FSIS’ authority, oversight, and access to information
       regarding the plant’s operation. Use the Grant of Inspection as a
       contract, or enforceable agreement between the Government and the
       establishment signed by all parties and subject to review and renewal.

             Agency Response

             In its May 18, 2000, response to the draft report, FSIS stated: “FSIS
             has been investigating the regulatory requirements associated with the
             Grant of Inspection and, if feasible, will pursue options to amend the
             Grant of Inspection to make clear the scope of FSIS’ regulatory
             authority over plant pathogen testing. A decision will be reached by
             June 2001.”

             OIG Position

             To reach management decision for this recommendation, we need
             more detailed information on how the recommendation will be
             implemented. Departmental Regulation No. 1720-1 requires that
             management decisions be reached within 6 months.

                                          Require plants to include all pathogen
 RECOMMENDATION NO. 12                    testing performed by the plants in their
                                          HACCP plans, to retain test results, and
                                          to notify the IIC of adverse microbial test
             results.




Section I, Page 52                                        USDA/OIG-A/24001-3-At
           Agency Response

           In its May 18, 2000, response to the draft report, FSIS stated:

                The PR/HACCP regulation does not require plants to
                include pathogen testing in their HACCP plans. The OIG’s
                concern is that plants are not notifying the IIC of adverse
                microbial test results and how the plant reacts to the
                adverse test results. As discussed in Agency responses to
                Recommendations No. 5 and 11, based on current
                regulations, plants must take corrective actions when such
                findings occur. FSIS will verify corrective actions taken and
                documented by the plant as well as the reassessment and
                modification of the HACCP plan when adverse microbial test
                results occur. FSIS is taking steps to make sure that in-
                plant inspection personnel understand this fully through
                workshops conducted at the National Supervisory
                Conferences and through work unit meetings.

           OIG Position

           The response did not address what will be done to require that plants
           include all pathogen testing in their HACCP plan nor explain in detail
           how inspectors will be informed of test results. To reach management
           decisions for this recommendation, we need a description of how
           the recommendation will be implemented and timeframe for
           implementation.

                                        Instruct IIC's to assess the adequacy of
 RECOMMENDATION NO. 13                  the plants’ corrective actions to eliminate
                                        harmful pathogens and to monitor those
                                        actions.

           Agency Response

           In its May 18, 2000, response to the draft report, FSIS stated:

                FSIS agrees to reinforce the requirement to assess the
                adequacy of plant’s corrective actions and to monitor these
                actions. Although such instructions were provided during
                HACCP training, FSIS has accumulated information during
                HACCP implementation that can be used to create case
                studies that can be shared to reinforce such concepts. Case
                studies are being used at the National Supervisory
                Conference, and will be covered at local work unit meetings

USDA/OIG-A/24001-3-At                                           Section I, Page 53
                          and through policy issuances. The TSC continues to be
                          available as a resource to help answer inspectors’ questions
                          about the adequacy of plants’ corrective actions.

                   OIG Position

                   We accept the management decision for this recommendation.

                                        FSIS had not established an effective
       FINDING NO. 10                   internal review process to provide
                                        assurance that plant HACCP, SSOP, and
   FSIS NEEDS TO PERFORM                microbial testing programs are operating
    INTERNAL REVIEWS TO                 as intended. In the six districts we
 EVALUATE HOW WELL HACCP IS             reviewed, district office personnel had not
         OPERATING                      conducted any internal reviews to ensure
                                        that plants operated HACCP and other
                                        programs effectively and fully complied
          with regulatory requirements. In the absence of district and higher-
          level reviews, inspectors at each plant independently determined if the
          plant’s HACCP plan was effective in producing a safe product. The
          FSIS officials attributed the lack of reviews of HACCP to a lack of
          resources.     Without independent internal control reviews, FSIS
          management has reduced assurance that adequate controls are in
          place and functioning over HACCP as it is being implemented.

                   The Federal Manager’s Financial Integrity Act and Office of
                   Management and Budget Circular No. A-123 requires each agency to
                   evaluate the adequacy of its management controls.

                   Although the agency published the results of a study21 covering the
                   initial implementation of HACCP, no additional studies have been
                   performed to determine if the recommended corrective actions were
                   implemented and effective at the plant level. FSIS National and district
                   office officials told us that the agency did not have the funding for
                   internal reviews in fiscal year (FY) 1999, but that the funding was now
                   available and an internal review program was in the planning stage for
                   FY 2000. Further, district office officials stated that they were working
                   to help the very small plants prepare for the implementation of HACCP,
                   and this effort was tying up resources.




21
     Evaluation of Inspection Activities during Phase One of HACCP Implementation (July 1998).



Section I, Page 54                                                          USDA/OIG-A/24001-3-At
             Currently HACCP has been implemented in approximately 2,600 (300
             large and 2,300 small) plants and by January 2000 will be
             implemented in all (approximately 6,000) slaughter and processing
             plants that operate under Federal inspection. Thus, the need for
             internal reviews is paramount. In addition, our audit disclosed
             numerous instances in which HACCP, SSOP, and testing programs
             were not working as intended; this also suggests that internal reviews
             are needed immediately.

                                          Develop and implement an internal review
 RECOMMENDATION NO. 14                    system to provide assurances that plant
                                          level HACCP, SSOP, and microbial
                                          testing programs are operating as
             intended.

             Agency Response

             In its May 18, 2000, response to the draft report, FSIS stated:

                  As mentioned in response to Recommendation No. 1, FSIS
                  is implementing the IDV review. The review is conducted by
                  FSIS experts from the Office of Policy Program
                  Development and Evaluation, Office of Public Health and
                  Science, Office of Field Operations of a plant’s SSOPs and
                  HACCP system, including Salmonella and E. coli testing.
                  FSIS obtained input from its Advisory Committee on Meat
                  and Poultry Inspection during the development of the IDV
                  protocol. It is a comprehensive review.

             OIG Position

             Since FSIS has implemented In-Depth Verification (IDV) Review, we
             accept the management decision for this recommendation.

                                      FSIS needs to improve its verification and
       FINDING NO. 11                 oversight of SSOP to ensure that plants
                                      implement effective controls to prevent
FSIS OVERSIGHT OF SSOP NEEDS product contamination or adulteration.
          IMPROVING                   FSIS inspectors had not verified the
                                      adequacy of the SSOP's to ensure the
                                      plans included (1) plant cleaning
           schedules, (2) sanitary handling of products, and (3) identification of
           plant employees responsible for implementing and maintaining specific




USDA/OIG-A/24001-3-At                                             Section I, Page 55
                   procedures.22 Consequently, there is reduced assurance that SSOP's
                   implemented by plants were effective in ensuring that food safety was
                   not compromised.

                   A sanitary environment is a basic prerequisite for preparing safe foods.
                   Following established and effective SSOP's is the most basic way to
                   ensure that a safe product is produced. FSIS inspectors are required
                   to verify the adequacy and effectiveness of the SSOP but are not
                   required to approve them. Thus, inspectors are not required to make
                   changes or modifications to SSOP plans that would enhance the
                   overall sanitation at a plant. FSIS' noncompliance monitoring records
                   have demonstrated that many SSOP plans were in fact inadequate
                   because repetitive conditions were never corrected (see Finding
                   No. 14). We reviewed SSOP‘s from our sample plants and found that
                   6 of the 15 plans (40 percent) were deficient. We found the following
                   deficiencies:

                       •   SSOP’s for plants A and B did not include cleaning schedules
                           documenting the frequency of plant sanitation activities. Thus,
                           we could not determine if the plant had performed the required
                           sanitation procedures.

                       •   Plant D did not develop effective corrective actions in its SSOP
                           to eliminate repetitive deficiencies during pre-operational
                           cleaning. We found that the same, or similar, sanitary
                           conditions were documented in the plant’s daily SSOP records.

                       •   Plant M did not develop SSOP's for the sanitary handling of
                           plastic product totes during unloading, for preventing
                           condensation from dripping onto uncovered products, and for
                           cleaning worker boots. We observed these conditions during
                           our walk- through of the plant.

                       •   Plant L's SSOP did not include procedures for addressing
                           sanitation in peripheral areas of the plant, and it did not identify
                           the plant employees’ responsible for implementing and
                           maintaining specific procedures.           We observed plant
                           employees, who worked in cooking areas, entering and
                           returning from raw product and peripheral areas of the plant
                           without changing their frock or gloves. This increased the
                           potential for cross-contamination.


22
     9 CFR § 416.12(d) and 416.17.



Section I, Page 56                                                 USDA/OIG-A/24001-3-At
              •    The SSOP for plant J did not identify the plant employees
                   responsible for implementing and maintaining the sanitation
                   procedures.

           We concluded that for FSIS to effectively perform its oversight role, the
           IIC needs the authority to require changes to SSOP plans which do not
           contain effective controls to prevent product contamination or
           adulteration.

                                         Ensure that IIC’s routinely evaluate the
 RECOMMENDATION NO. 15                   effectiveness of SSOP’s and require
                                         changes and modifications to plants’
                                         SSOP plans when needed.

           Agency Response

           In its May 18, 2000, response to the draft report, FSIS stated:

                  Under current regulations, when direct product
                  contamination occurs, the establishment is responsible for
                  implementing and documenting corrective action to prevent
                  it from occurring in the future, and must prevent it from
                  entering commerce (9 CFR 416.15). Inspection personnel
                  have the appropriate authority to address this in case of
                  noncompliance by the plant. In addition, 9 CFR 416.14
                  requires plants to routinely evaluate the effectiveness of the
                  SSOP’s. This information was covered during SSOP
                  training, HACCP training and is addressed FSIS Directive
                  5000.1 In addition, some of the examples cited in this report
                  indicate that there may be some misunderstanding on the
                  part of inspection personnel about the newly implemented
                  Sanitation Performance Standard regulations. FSIS held
                  district meetings to clarify inspection personnel’s
                  responsibilities prior to issuing this regulation. FSIS agrees
                  to reinforce through training and better communication the
                  FSIS inspectors’ authorities in relation to the Sanitation
                  Performance Standard regulation and SSOP’s through the
                  National Supervisory Conferences and work unit meetings.
                  It will also clarify how inspection personnel should respond
                  in cases of repetitive noncompliance.




USDA/OIG-A/24001-3-At                                            Section I, Page 57
                   OIG Position

                   To achieve a management decision for this recommendation, we
                   need specific details along with completion timeframes as to your
                   clarification of how inspection personnel will respond in cases of
                   repetitive noncompliance.

                                            Oversight of returned products needs
          FINDING NO. 12                    improvement (i.e., products that have
                                            entered commercial channels and have
       FSIS PROCEDURES FOR                  been returned to the plant for various
      RETURNED PRODUCTS ARE                 reasons, such as, being rejected by the
            INADEQUATE                      buyer due to damage in shipment, wrong
                                            quantity, etc.). FSIS does not require
                                            plant HACCP plans to include procedures
              for returned products, although all returned products require
              reinspection prior to entering the plant.23 As a result, returned products
              could be reworked (sent back through the production line) and placed
              back into the food distribution system without FSIS having any
              knowledge of the returned products.

                   Our review disclosed that inspectors were not always notified when
                   returned products entered the plant and were not informed of the
                   disposition of these products. We found that HACCP plans for the
                   15 plants we visited did not include procedures for returned products.

                   At plant G, the returned product records could not account for the
                   disposition of 56 percent (39 of 69 return forms) of the products
                   returned. Inspectors informed us that they were not certain if they had
                   re-inspected the returns in question or how the plant had used the
                   products. Inspectors stated that the plant generally informed FSIS
                   when goods were returned; however, under HACCP, the plant is no
                   longer required to inform FSIS when goods are returned.

                   We also found that 3 of the 15 plants (H, K, and O) did not have
                   procedures to account for returned goods or records of the products’
                   disposition. Because no records were kept for returned products, we
                   could not evaluate whether FSIS had re-inspected the returned goods
                   or how the plants had disposed of the products.




23
     9 CFR § 318.2 and 318.3.



Section I, Page 58                                              USDA/OIG-A/24001-3-At
           In order to ensure consumer protection, FSIS needs to require HACCP
           plans to include procedures to account for returned products to ensure
           that all products are re-inspected or disposed of properly.

                                        Establish procedures that require that the
 RECOMMENDATION NO. 16                  returned product process be included in
                                        the hazard analysis and HACCP plan.

           Agency Response

           In its May 18, 2000, response to the draft report, FSIS stated:

                FSIS agrees that establishments receiving and handling
                returned products should be considering the returned
                product process when conducting its hazard analysis and
                when developing its HACCP plan.            The PR/HACCP
                regulation does not preclude this (9 CFR 417.2). The fact
                that plants may consider the returned product process while
                conducting its hazard analysis and when developing its
                HACCP plan doesn’t mean that it will be included in the
                plant’s HACCP plan. However, if inspection personnel have
                questions about the return product process not being
                included in the HACCP plan, they have the authority to
                question the plant’s rationale and to request documentation
                indicating why the returned product process (or any other
                process) is not included in the plant’s HACCP plan. FSIS
                disagrees that it needs to, “establish procedures that
                require,” the returned product process be included in the
                hazard analysis and HACCP plan, but it agrees to reinforce
                through training and improved communication with
                inspection personnel the regulatory requirements and
                responsibilities of the establishment with regard to
                controlling the returned product. FSIS will also do what is
                necessary to ensure that official establishments are
                cognizant of these requirements and responsibilities and of
                the consequences that flow from failure to meet this.

           OIG Position

           Our audit raised serious questions concerning product being
           returned without inspectors not always being notified or the
           disposition of the product, thus we continue to believe that returned
           product process should be addressed in the hazard analysis and
           HACCP plan. We are open to any alternative that FSIS may have to
           improve and strengthen the returned product process. However, to

USDA/OIG-A/24001-3-At                                           Section I, Page 59
             reach management decision, we need a description of how the
             recommendation will be implemented and a timeframe for
             implementation.

                                            Establish procedures for inspectors that
 RECOMMENDATION NO. 17                      include their oversight responsibilities
                                            from the point of product return to product
                                            distribution.

             Agency Response

             In its May 18, 2000, response to the draft report, FSIS stated:

                     According to 9 CFR 318.1, the inspector is required to
                     reinspect all returned products. The regulations also
                     indicate that if at any point, returned products are suspected
                     of being adulterated, appropriate actions will be taken. FSIS
                     disagrees that additional procedures need to be established
                     with regard to inspection oversight responsibilities.
                     However, FSIS agrees to reinforce with inspection
                     personnel their responsibilities related to returned product.

             OIG Position

             We agree that reinforcing inspection personnel responsibilities
             related to returned products is an acceptable management decision
             for this recommendation. However, to reach management decision,
             we need to know how and when this action will be performed.

                                        FSIS District Office personnel need to
       FINDING NO. 13                   maintain,      modify       and      update
                                        establishment/ shift plans on a continuous
     FSIS DISTRICT OFFICE               basis to ensure that applicable scheduled
 PERSONNEL NEED TO MAINTAIN             tasks are being performed. According to
    ESTABLISHMENT/SHIFT                 FSIS’ Performance Based Inspection
      PROCEDURE PLAN                    System (PBIS) computerized reports,
                                        about 17 percent of scheduled tasks were
                                        not being done by inspectors at the
           plants. This occurred because FSIS district office officials did not
           update the scheduled tasks when permanent changes occurred in the
           plants’ operations. In addition, a lack of coding or written explanation
           in the report made it impossible to differentiate between when a task
           that was no longer valid at the plant and a task that could have been




Section I, Page 60                                           USDA/OIG-A/24001-3-At
                    done but was not. As a result, inspectors may not be performing tasks
                    that carry the greatest public health significance or threat.

                    Inspection personnel are to develop and maintain an establishment/
                    shift procedure plan that reflects the current operations for shifts in an
                    establishment.     Personnel should review the form for each
                    establishment at least annually to ensure that there is a plan for every
                    shift and that the plan accurately reflects the operations that the
                    establishment currently conducts during the shift.24 District office
                    personnel need to update scheduled tasks on a continuous basis to
                    ensure that plant-specific tasks are being performed.

                    Inspection personnel complete the Establishment/Shift Inspection
                    Procedure Worksheet (Form 5400-5) to generate daily task schedules
                    to be performed at plants subject to HACCP system regulations. The
                    worksheet reflects the current operations of the plant.              After
                    completing the worksheets, inspection personnel submit them to their
                    district office where personnel enter all identified tasks into the PBIS.
                    The PBIS schedules the in-plant tasks to be performed by inspection
                    personnel in the plant each day on a Procedure Schedule (Form
                    5400-2). At four of the six district offices we visited, we found the
                    following deficiencies in the PBIS schedules:

                        •    District 20 – Two of the twenty-eight scheduled tasks assigned
                             to inspectors at plant B were not applicable. These two tasks
                             were for products that were no longer produced at the plant. In
                             addition, 2 of the 33 scheduled tasks assigned to plant A were
                             not applicable. Inspectors at the plant had given prior notice to
                             the district office that the tasks were not applicable; however,
                             district office personnel did not make the revisions.

                        •    District 25 – Three of the seventeen scheduled tasks assigned
                             to inspection personnel at plant E were not applicable. We also
                             found that scheduled tasks were documented for only the first
                             shift at plant D, although, the plant operated on two shifts.

                        •    District 35 – Four of ten plants reviewed had incorrect tasks
                             assigned based on current plant profile information.

                        •    District 90 – Three of thirteen plants reviewed had incorrect
                             tasks assigned based on current plant profile information.



24
     FSIS Directive 5400.5 Section IX.

USDA/OIG-A/24001-3-At                                                     Section I, Page 61
             We also found that FSIS should monitor and analyze the reasons
             inspection tasks are not being performed and address any needed
             changes. We could not tell whether the inspectors were unable to
             perform the tasks because they did not have time, because the plant
             profile was incorrect (generated inappropriate tasks), or because the
             plant’s operations simply made the task not applicable for that shift.
             FSIS instructions only require that the inspector circle "not performed"
             on the form. The instructions do not require the inspector to explain
             why the task was not performed. Inspectors advised that if the plant
             did not operate a shift, then they would code all tasks for that shift as
             “not performed.” They noted that the form 5400-2 could include codes
             such as ones that indicated the plant was not operating or was not
             performing the process to be reviewed. We found the following at the
             plants we visited.

                •    Plant A – At plant A, 35 of 207 (17 percent) of scheduled
                     monitoring tasks for February 1999 were not performed. The
                     IIC attributed this to staff following up on noncompliance
                     records, being unavailable due to vacation or illness, or
                     engaging in time-consuming export duties.

                •    Plant B – At plant B, 13 of 91 (14 percent) scheduled
                     monitoring tasks for February 1999 were not performed.
                     Inspectors attributed this to staff shortages due to vacation,
                     sickness, etc.

                •    Plant C – At plant C, 45 of 258 (17 percent) scheduled
                     monitoring tasks for February 1999 were not performed. The
                     IIC attributed this to staff shortages due to vacations, sickness,
                     etc.

                •    Plant G – At plant G, 53 of 225 (24 percent) scheduled
                     monitoring tasks for February 1999 were not performed. The
                     IIC attributed this to staff shortages.

                                 Require FSIS district office personnel to
 RECOMMENDATION NO. 18           monitor and update scheduled tasks on a
                                 continuous basis and to establish
                                 additional codes or require inspectors to
       document why tasks are not performed.




Section I, Page 62                                          USDA/OIG-A/24001-3-At
           Agency Response

           In its May 18, 2000, response to the draft report, FSIS stated:

                FSIS relies on the Inspection Systems Procedure Guide and
                the Performance Based Inspection System (PBIS) (see
                FSIS Directive 5400.5 and Module 6 of HACCP training) to
                schedule and record the performance of inspection
                procedures. In-plant inspectors report the procedures they
                perform to the District Offices. District Offices enter the
                procedures performed in the PBIS. In the event that a
                procedure no longer applies to an establishment, in-plant
                inspection personnel are instructed (in FSIS Directive
                5400.5) to make appropriate modifications to PBIS. In-plant
                inspectors are authorized to make changes to scheduled
                procedures based on plant conditions and their judgment
                (i.e., noncompliance with a scheduled 01 procedure triggers
                the inspector to perform an unscheduled 02 procedure,
                which would impact the performance of other scheduled
                procedures for that day). FSIS does not agree that it is
                necessary or beneficial to establish codes to require
                inspectors to document why tasks are not performed.
                Circuit Supervisors are responsible for reviewing PBIS
                reports on a regular basis and working with inspectors if they
                have questions about why procedures are not performed.
                FSIS is taking steps to reinforce the usefulness of PBIS data
                with Circuit Supervisors through circuit meetings at the
                District Offices and through the National Supervisory
                Conferences. The TSC is also summarizing PBIS data
                graphically on a national basis to indicate areas where,
                based on further investigation, correlation on the application
                of PBIS may be needed.

           OIG Position

           While FSIS does have the Performance Based Inspection System
           (PBIS) that they rely on to schedule and record the performance of
           inspection procedure, neither the system nor inspection personnel
           ensures that the assigned scheduled tasks are applicable or
           determine why tasks were not performed when they are applicable.
           Our audit disclosed that many applicable plant -specific tasks were
           not performed because establishment/shift plans were not modified
           and updated on a continuous basis to reflect the plants current
           operation. Also, for applicable tasks that were not performed, we
           could not determine the reason why. We could not determine

USDA/OIG-A/24001-3-At                                           Section I, Page 63
             whether the inspectors were unable to perform the task because
             (1) they did not have time, (2) the plant profile was incorrect or
             (3) the plant’s operation made the task not applicable. Because of
             these issues, we believe that FSIS should document the reason why
             task are not being performed. Also, FSIS needs to know why tasks
             are not being performed so they can assess inspectors performance
             and staffing needs. To reach management decision, we need details
             and timeframes on how the recommendation will be implemented.

                                      Inspection personnel perform thousands
       FINDING NO. 14                 of inspection procedures each day to
                                      determine whether plants comply with
  INADEQUATE RESPONSES TO             regulatory requirements. Any identified
   NONCOMPLIANCE RECORDS              instances     of    noncompliance        are
                                      documented on a Noncompliance Record
                                      (NR). The number of NR deficiencies at
          any particular establishment is not always an indicator as to the safety
          or wholesomeness of the plant’s products or an indicator of an
          inadequate system. Many NR’s are written for regulatory violations
          that are not related to food safety issues. For example, labeling
          violations and errors in product weights will result in issuance of an
          NR but the public health would not be endangered by the
          noncompliance.

             We found FSIS needs to establish specific guidelines for the number
             of repetitive noncompliance deficiencies that will support a
             determination that there has been a HACCP or SSOP system failure
             requiring administrative or enforcement actions. Also, we found that
             plants did not always promptly respond to NR or take timely corrective
             actions. During the audit, we found numerous repetitive critical
             deficiencies with the same cause, where permanent corrective action
             had not been taken or enforcement actions initiated. This occurred
             because FSIS has not issued any instructions as to how many and
             how frequently repetitive deficiencies can occur before corrective
             actions are deemed inadequate or when enforcement actions should
             start. In addition, procedures did not require plant management to
             respond to NR’s in a timely manner. As a result, appropriate product
             control and enforcement measures to protect consumers are not in
             place and plants are not presenting corrective action plans to
             eliminate the plant sanitation or process control systems deficiencies.

             There are no guidelines for the number, frequency, nature, or
             circumstances of repetitive critical deficiencies that constitute a
             breakdown in the sanitation or HACCP systems. An important part of



Section I, Page 64                                        USDA/OIG-A/24001-3-At
           this determination would be the failure of previously implemented
           corrective measures by the plant to prevent the recurrence of direct
           product contamination or adulteration. In plants operating under
           HACCP, FSIS inspection personnel perform inspection procedures to
           determine whether plants comply with regulatory requirements. Each
           time the performance of a procedure results in a finding of
           noncompliance with these regulatory requirements, inspection
           personnel document the finding on a Noncompliance Record (FSIS
           Form 5400.4). These NR’s are used to support, document, and notify
           plants of noncompliance noted in the plant's sanitation and process
           control systems. We found the following repetitive deficiencies with
           the same cause where the plant did not take long-term or permanent
           corrective actions to prevent recurrence of deficiencies.

              •   Plant O - From January 25, 1999, through July 2, 1999, FSIS
                  inspectors at this plant had written 102 NR’s, 31 of which (30
                  percent) had been written because the plant failed to comply
                  with its own zero tolerance for fecal contamination. Also, the
                  plant itself had identified 29 instances of noncompliance on its
                  CCP Monitoring Log For Zero Tolerance. Although the plant
                  took immediate action to correct the problem by rinsing the
                  product, no permanent corrective action was taken. It appears
                  that the plant needed to take additional measures to properly
                  alleviate the problem. FSIS inspectors said they were unaware
                  of any actions to take, thus they continued to allow the plant to
                  take the same corrective action of rinsing the product.

              •   Plant C - Three (9.4 percent) of the thirty-two NR’s written by
                  the inspectors at this plant were for repetitive violations. The
                  repetitive violations were for inadequate pre-operational
                  cleaning and corrective actions from prior NR’s that were not
                  implemented. We also found that company officials seemed to
                  wait for FSIS inspectors to point out deficiencies before taking
                  corrective actions. FSIS inspectors told us that the plant
                  management attitude was "if the inspector does not spot a
                  problem, then the problem does not exist."

              •   Plant A – Eleven (33 percent) of the thirty-three NR’s written by
                  inspectors at this plant were for repetitive violations. Seven of
                  the repetitive violations were for oil and grease on plant
                  equipment that came in contact with meat product. FSIS
                  inspectors stated that this problem had been ongoing for
                  several years and that nothing had been done to correct the
                  problem. The inspectors told us they wanted guidance on the
                  "specific number" of repetitive deficiencies that were needed to

USDA/OIG-A/24001-3-At                                          Section I, Page 65
                     force a corrective action because they were not able to get
                     support from the district office on this issue. District office
                     officials told us that for a violation to be repetitive, it must be on
                     the same piece of equipment and not the same problem on
                     different equipment on different days. Consequently, the plant
                     only performed minimal corrective action to appease the
                     inspectors but did not address the specific cause or eliminate
                     the problem.

                •    Plant B – Seven (20.5 percent) of the thirty-four NR’s written
                     by FSIS inspectors at this plant were for repetitive violations.
                     The corrective actions were inadequate to correct the problem.
                     The corrective actions were generally to "counsel the
                     employees" but never to correct the real cause of the problem.
                     Also, from January 1 through July 31, 1999, the plant was
                     opened for work 172 days of which 38 days (22 percent) had at
                     least one zero-tolerance failure. The FSIS technical service
                     center representative stated that the number of zero-tolerance
                     failures was excessive and the corrective measures taken were
                     inadequate.

             We also found that FSIS needs to establish timeframes for responding
             to NR’s. When FSIS does not respond to NR’s in a timely manner,
             plants do not promptly document the actions they intend to take to
             correct noncompliance. FSIS Directive 5400.5 Section IX. A, on NR’s
             does not address timeframes for responding to NR’s. However, the
             directive states that:

                     When an NR is issued, inspection personnel [should]
                     provide plant management with a copy of the NR (as
                     soon as possible, or by the end of the tour of duty) and an
                     opportunity to respond either orally or in writing.

             The directive also states that:

                     * * * until an establishment has brought itself into
                     compliance with the regulatory requirement(s) that
                     resulted in the issuance of the NR, the NR is "open."
                     When plant management returns the NR with their
                     proposed immediate and further planned actions and
                     inspection personnel determined that the actions by the
                     plant are acceptable and have brought the plant into
                     compliance with regulatory requirements that resulted in
                     the issuance of the NR, the NR is then "closed."



Section I, Page 66                                            USDA/OIG-A/24001-3-At
           We found the following cases where plants had not promptly
           responded to NR’s during our audit:

              •   Plant N - Seventeen NR’s had not been closed at the time of
                  our audit. These NR’s had been open from 11 to 131 days.
                  This occurred because inspection personnel did not review the
                  open NR file daily and follow up with plant management on a
                  continuous basis to determine the status of corrective actions
                  on open NR’s.
              •   Plant B - Nine NR’s were not closed from 8 to 83 days.

              •   Plant C - Fourteen NR’s were not closed from 8 to 29 days.

              •   Plant G – Sixteen NR’s were not closed from 4 to 60 days.

           In our opinion, the procedures for issuing NR’s need to be changed
           in order to provide FSIS management with an enhanced control that
           can be used to identify potential problem plants requiring
           enforcement actions.     In addition, local plant inspectors need
           additional guidance on how to prepare NR’s, monitor corrective
           action and evaluate the effectiveness of corrective action on NR’s.

                                  Develop and implement progressive
 RECOMMENDATION NO. 19            enforcement procedures that establish
                                  specific    parameters for  repetitive
                                  deficiencies and provide a basis for
       determining when corrective actions are inadequate and when
       enforcement actions should be promptly initiated.

           Agency Response

           In its May 18, 2000, response to the draft report, FSIS stated: “FSIS
           will develop procedures for repetitive deficiencies by December 2000.”

           OIG Position

           We accept the management decision for this recommendation.

                                       Establish timeframe requirements for
 RECOMMENDATION NO. 20                 responding to NR’s and initiating planned
                                       corrective actions.




USDA/OIG-A/24001-3-At                                         Section I, Page 67
             Agency Response

             In its May 18, 2000, response to the draft report, FSIS stated:

                     The Noncompliance Record (NR) states that plants must
                     respond immediately when notified by inspection personnel
                     of noncompliance. (Also see FSIS Directive 5400.5 and
                     HACCP training). Plants are also required to initiate
                     planned actions to prevent reoccurrence of the
                     noncompliance. Plants are not required to respond in
                     writing on the NR. They are, however, required, 9 CFR
                     416.16 and 417.5, to document corrective actions in plant
                     records. FSIS does not find it advisable to establish specific
                     timeframes (i.e., minutes, hours) for a plant to initiate and
                     implement corrective actions because of the nature and
                     variability among plants and production processes. The
                     nature of some corrective actions involve modifications that
                     can be made quickly, while others (e.g., equipment
                     changes) require longer timeframes. This may explain why,
                     as mentioned in the report, some NR’s remained open for a
                     period of time. FSIS believes its current regulations
                     appropriately hold plants accountable for initiating and
                     implementing corrective actions. FSIS does not agree to
                     change the procedures for issuing NR’s, but it does agree to
                     reinforce with inspection personnel their responsibilities for
                     monitoring and evaluating the effectiveness of corrective
                     actions. This is being done first through the content of the
                     National Supervisory Conferences and then through local
                     work unit meetings.

             OIG Position

             While we agree that the length of time to initiate and implement
             corrective actions for NRs differs based on the nature and variability
             among plants and production processes, there still needs to be
             processes in place to determine whether plants’ open NRs are due
             to the length of time it takes to correct deficiencies or due to the need
             of a description of how the recommendation will be implemented and
             a timeframe for implementation.




Section I, Page 68                                           USDA/OIG-A/24001-3-At
USDA/OIG-A/24001-3-At   Section I, Page 69
Section I, Page 70   USDA/OIG-A/24001-3-At
EXHIBIT A – SITES VISITED



DISTRICT NUMBER 20 - MINNEAPOLIS, MINNESOTA
     Plant A
     Plant B
     Plant C

DISTRICT NUMBER 25 - DES MOINES IOWA
     Plant D
     Plant E
     Plant F

DISTRICT NUMBER 30 - LAWRENCE, KANSAS
     Plant G
     Plant H
     Plant I

DISTRICT NUMBER 35 - SPRINGDALE, ARKANSAS
     Plant J
     Plant K

DISTRICT NUMBER 75 - GREENBELT, MARYLAND
     Plant L
     Plant M

DISTRICT NUMBER 90 - JACKSON, MISSISSIPPI

     Plant N
     Plant O




USDA/OIG-A/24001-3-At                         Page 69
EXHIBIT B – NUMBER OF HACCP PLANS REVIEWED

                                                       TOTAL      HACCP
                                                       HACCP      PLANS
      PLANT          PLANT TYPE                        PLANS      REVIEWED

          A          Hog Slaughter/Processing              1           1

          B          Beef Slaughter/Processing             2           2

          C          Hog Slaughter/Processing              54          5

          D          Processed Meat/Poultry Products       8           8

          E          Processed Meat/Poultry Products       3           3

          F          Beef Slaughter                        1           1

          G          Poultry Slaughter/Processing          2           1

          H          Processed Meat/Poultry Products       1           1

           I         Beef Slaughter/Processing             1           1

           J         Poultry Slaughter/Processing          2           2

          K          Beef Slaughter/Processing             9           9

           L         Hog Slaughter/Processing              20          20

          M          Processed Meat/Poultry Products       1           1

          N          Poultry Slaughter/Processing          1           1

          O          Poultry Slaughter/Processing          1           1

                              Total HACCP Plans           107          57




Section I, Page 70                                     USDA/OIG-A/24001-3-At
EXHIBIT C – COMPARISON OF PLANT CCP’S TO FSIS MODEL

        An X indicates the plant had a CCP similar to the model. The number in
        parentheses represents the critical limit temperature (Fahrenheit) of a process
        requiring heating or cooling.

             MODEL HACCP-12, FULLY COOKED, NOT SHELF STABLE


   PLANT CCP 1B      CCP 2B    CCP 3P    CCP 4B    CCP 5B   CCP 6B    CCP 7B   Remarks
    C                                    X(155°)
    D                X(40°)              X(165°)   X(40°)
    E                                    X(150°)   X(55°)                         1/
    H                                    X(148°)   X(50°)                         2/
    K                                    X(160°)




              1/ CCP 4B, Cooking - Temperature for poultry was 160 degrees.
              2/ CCP 4B, Cooking - Temperature for poultry was 155 degrees.




              Explanation of CCP's:
                    CCP 1B Receiving, Raw Meat
                    CCP 2B Storage, Cold - Raw Meat
                    CCP 3P Preparation of Raw Meat - Metal Detection
                    CCP 4B Cooking - Temperature
                    CCP 5B Chilling
                    CCP 6B Portioning (Zero tolerance for LM)
                    CCP 7B Finished Product Storage (cold)




USDA/OIG-A/24001-3-At                                                          Page 71
EXHIBIT C – COMPARISON OF PLANT CCP’S TO FSIS MODEL

                       MODEL HACCP-4, RAW, NOT GROUND

              PLANT   CCP 1B     CCP 2B    CCP 3B      CCP 4B    Remarks
               A                 X(45°)                X(40°)
               B                 X(55°)                            2/
               C                 X(48°)
               G                 X(55°)
                I                X(45°)
               J                 X(40°)        X       X(40°)
               K                                                   1/
               L                                                   1/
               M                 X(40°)
               N                 X(55°)
               O                                                   1/



             1/ Plant had no CCP's for this process.

             2/ The plant identified food safety hazards for Refrigerated Storage and
                Advanced Meat Recovery where CCP’s should have been established.
                The plant had developed, and was monitoring room temperatures in
                production areas; however, this control was not listed as a CCP. We
                also found that the plant had not established a CCP for their Advanced
                Meat Recovery system that produced a fine beef mixture. After our
                review, we were advised that CCP's were being established for both
                Refrigerated Storage and Advanced Meat Recovery.




             Explanation of CCP's
                   CCP 1B        Receiving - Carcasses
                   CCP 2B        Storage (cold) - Carcasses
                                 CCP 3P       Fabrication of trimmings and/or cuts -
                                 metal    detection
                   CCP 4B        Finished Product Storage (cold)




Section I, Page 72                                              USDA/OIG-A/24001-3-At
EXHIBIT C – COMPARISON OF PLANT CCP’S TO FSIS MODEL

                        MODEL HACCP-3, RAW, GROUND

          PLANT   CCP 1B    CCP 2B   CCP 3P    CCP 4B   CCP 5P    CCP 6B   Remarks
            C               X(45°)
            E               X(45°)
            I               X(45°)                         X
            K               X(60°)
            L                                                                 1/



           1/ Plant had no CCP's for this process.




           Explanation of CCP's
                 CCP 1B        Receiving Meat
                 CCP 2B        Storage (cold) meat
                 CCP 3P        Grind/Blend metal detection
                 CCP 4B        Packaging/labeling
                 CCP 5P        Packaging/labeling - metal detection
                 CCP 6B        Finished Product Storage (cold)




USDA/OIG-A/24001-3-At                                                      Page 73
EXHIBIT C – COMPARISON OF PLANT CCP’S TO FSIS MODEL

                       MODEL HACCP-14, PORK SLAUGHTER

                     PLANT   CCP 1B     CCP 2B    CCP 3B     CCP 4B
                       A       X                             X(45°)
                       C                 X
                       K                 X                   X(60°)
                       L                             X




             Explanation of CCP's
                   CCP 1B        Pre-Evisceration Wash
                   CCP 2B        Final Trim/Final Wash
                   CCP 3B        Pluck/Viscera Wash
                   CCP 4B        Chilling/Cold Storage


                       MODEL HACCP-13, BEEF SLAUGHTER

                     PLANT    CCP 1B   CCP 2B    CCP 3B    Remarks
                       B        X
                       I        X        X                    1/
                       F        X



             1/ The plant installed an intervention to reduce hazards, and to qualify for a
                 program whereby FSIS stops end-product testing (FSIS Directive
                 10010.1). However, the plant did not list the intervention as a CCP.




             Explanation of CCP's
                   CCP 1B        Final Wash (Antimicrobial) - Zero Fecal
                   CCP 2B        Chilling (All Products)
                   CCP 3B        Finished Product Storage (Cold)




Section I, Page 74                                           USDA/OIG-A/24001-3-At
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24001-3-At                            Section I, Page 75
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




Section I, Page 76                      USDA/OIG-A/24001-3-At
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24001-3-At                            Section I, Page 77
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




Section I, Page 78                      USDA/OIG-A/24001-3-At
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24001-3-At                            Section I, Page 79
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




Section I, Page 80                      USDA/OIG-A/24001-3-At
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24001-3-At                            Section I, Page 81
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




Section I, Page 82                      USDA/OIG-A/24001-3-At
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24001-3-At                            Section I, Page 83
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




Section I, Page 84                      USDA/OIG-A/24001-3-At
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24001-3-At                            Section I, Page 85
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




Section I, Page 86                      USDA/OIG-A/24001-3-At
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24001-3-At                            Section I, Page 87
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




Section I, Page 88                      USDA/OIG-A/24001-3-At
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24001-3-At                            Section I, Page 89
                            ABBREVIATIONS


ARS     - Agricultural Research Service

CCP     - Critical Control Point

CDC     - Centers for Disease Control

CFR     - Code of Federal Regulations

FSIS    - Food Safety and Inspection Service

GAO     - General Accounting Office

GMP     - Good Manufacturing Processes

HACCP   - Hazard Analysis and Critical Control Point

IIC     - Inspector-In-Charge

LM      - Listeria monocytogenes

NR      - Noncompliance Record

OIG     - Office of Inspector General

PBIS    - Performance Based Inspection System

QC      - Quality Control

SSOP    - Sanitation Standard Operating Procedure

USDA    - U.S. Department of Agriculture
